1a
APPENDIX A
E-FILED
Court of Special Appeals
Gregory Hilton
11/16/2018 3:27 PM
Circuit Court for Anne Arundel County
Case Nos. 09-IN-OO-0148 & 09-IN-OO-0149
UNREPORTED
IN THE COURT OF SPECIAL APPEALS
OF MARYLAND
No. 2597
September Term, 2016
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

STAPLES, INC., et al.
v.
COMPTROLLER OF THE TREASURY
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

Friedman,
Shaw Geter,
Raker, Irma,
(Senior Judge, Specially Assigned)
JJ.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

Opinion by Shaw Geter, Jr.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

Filed: August 9, 2018
*This is an unreported opinion, and it may not be cited
in any paper, brief, motion, or other document filed

2a
in this Court or any other Maryland Court as either
precedent within the rule of stare decisis or as
persuasive authority. Md. Rule 1-104.
This case arises from the assessment of state
taxes against appellants Staples, Inc. (“Staples, Inc.”)
and Staples the Office Superstore, Inc.1 for tax years
1999 through 2004. The Comptroller issued Notices
of Final Determination declaring tax, interest, and
penalties due to the State of Maryland in the amount
of $13,894,252 and $498,112 respectively. Appellants
timely appealed to the State Tax Court, and the
Tax Court affirmed the Comptroller’s assessment but
waived all penalties and interest accruing from February 20, 2009 through May 28, 2015. Appellants then
filed a Petition for Judicial Review in the Circuit Court
for Anne Arundel County, and the Comptroller filed a
Cross-Petition regarding the partial waiver of interest.
The circuit court vacated the partial waiver of interest,
but otherwise affirmed the decision.
We have combined and reordered appellants’2
questions presented as follows:
1
2

Now Staples the Office Superstore, LLC.
Appellant presented the following questions for our review:
1.
Did the Tax Court commit error when it failed to
find that Superstore and Staples were separate
business entities with economic substance?
2.
Did the Tax Court commit error when it failed to
find that the Notices improperly calculated the
tax due?
3.
Did the Tax Court commit error when it failed to
find that the Notices violated Maryland law in
that the Comptroller’s apportionment methodology

3a
1.

Did the Tax Court commit error when it
failed to find that Superstore and Staples,
Inc. had economic substance as separate
business entities?

2.

Did the Tax Court commit error when it
failed to find that the Notices improperly
calculated the tax due, and therefore violated the Due Process Clause and Commerce Clause of the U.S. Constitution?

3.

Did the Tax Court properly waive a portion of the interest? For the reasons discussed below we shall affirm the findings
of the Tax Court.
BACKGROUND

On January 28, 2008, appellee, the Comptroller,
issued Notices of Assessment to Staples, Inc. (“Staples,
Inc.”) and Staples the Office Superstore, Inc. (“Superstore”), (collectively “appellant”) for unpaid corporate
income taxes from the years 1999 through 2004 (the
“Audit Period”). Staples, Inc. and Superstore contested
the amount, and, on January 26, 2009, the Comptroller issued Notices of Final Determination affirming

4.

5.

grossly distorted the income of Superstore and
Staples attributable to Maryland?
Did the Tax Court commit error when it failed to
find that the Notices violated the Due Process
Clause and the Commerce Clause of the U.S. Constitution?
Did the Tax Court properly waive a portion of the
interest?

4a
the assessments. The Notices noted Superstore owed
$6,340,835 in taxes, $1,585,210 in penalty, and $5,968,207
in interest. The Notices charged Staples, Inc. owed
$213,325 in taxes, a $53,331 in penalty, and $231,456
in interest.
Appellants then appealed to the Maryland Tax
Court to contest the Notices, arguing the Comptroller’s
apportionment method distorted the amount of their
income attributable to Maryland, and that there was
not sufficient nexus for Maryland to tax them. Later,
in a Joint Stipulation of Facts with the Comptroller,
however, appellants conceded there was sufficient
nexus. The Tax Court trial was held August 24-25,
2011. In its Memorandum and Order, issued May 28,
2015, the Court affirmed the Comptroller’s assessment
of tax but waived all penalties and interest accruing
from the date of the appeal to the Tax Court to the date
of the Tax Court’s decision.
Appellants, thereafter, filed a Petition for Judicial Review of the Decision in the Circuit Court for
Anne Arundel County. The Comptroller filed a CrossPetition, contesting the waiver of interest. The court
vacated the Tax Court’s waiver of interest, but otherwise affirmed the decision.
This appeal followed. Additional facts will be
added as they become relevant to the issues below.

5a
DISCUSSION
I.

The Tax Court correctly found Superstore
and Staples, Inc. did not have economic substance as separate business entities.

The Maryland Tax Court is “an adjudicatory
administrative agency,” and, thus, “decisions of the
Tax Court receive the same judicial review as other
administrative agencies.” Gore Enter. Holdings, Inc. v.
Comptroller of Treasury, 437 Md. 492, 503 (2014)
(internal citations and quotations omitted). “In this
context, our review looks through the circuit court’s . . .
decisions . . . and evaluates the decision of the agency.”
Id. (internal citations and quotations omitted). “A
court’s role in reviewing an administrative agency
adjudicatory decision is narrow; it is limited to determining if there is substantial evidence in the record as
a whole to support the agency’s findings and conclusions, and to determine if the administrative decision is
premised upon an erroneous conclusion of law.” Maryland Aviation Admin. v. Noland, 386 Md. 556, 571
(2005) (internal citations and quotations omitted). “We
cannot uphold the Tax Court’s decision ‘on grounds
other than the findings and reasons set forth by [the
Tax Court].” Gore, 437 Md. at 503.
Before this Court, appellants argue the Tax Court
erred in “sua sponte rais[ing] as an issue and decid[ing]
whether [appellants] ha[ve] sufficient contacts with
Maryland in order to be subject to tax.” Appellants
contend that the Tax Court incorrectly ruled that in
order to establish nexus, or sufficient contacts, a determination of whether the corporations had economic

6a
substance as separate business entities was required.
They argue “[i]nasmuch as Superstore and Staples[,
Inc.] had a physical presence in Maryland that was
stipulated to by the Comptroller,” they were “subject to
tax in the State.” Therefore, they contend the economic
substance analysis under Comptroller of the Treasury
v. SYL, Inc., 375 Md. 78 (2003), is inapplicable. As
addressed in appellants’ second question presented,
they argue that, in order to calculate the percentage of
its income attributable to Maryland, the Comptroller
was required to use the standard apportionment formula under § 10-402 of the Maryland Tax-General
Code Annotated, which multiplies the taxable income
of a corporation with economic substance by a specific
apportionment formula, comprised of the taxpayer’s
property, payroll, and sales.
In their separate Petitions of Appeal to the Tax
Court, however, Superstore and Staples, Inc., argued in
identical language that they did “not have sufficient
nexus with the State to be subject to Maryland tax.”
The Petitions asserted neither company “own[ed] nor
lease[d] any tangible personal property in Maryland,”
and “ha[d] no employees or bank accounts in Maryland.” Subsequently, they conceded in a Joint Stipulation of Facts, filed in conjunction with the Comptroller,
that there was, in fact, sufficient nexus.
The Tax Court’s approach was nevertheless proper,
explaining:
The Court of Appeals of Maryland has consistently held certain constitutional principles

7a
must be satisfied before an entity is subject to
Maryland income tax. “Under both the Due
Process and the Commerce Clauses of the
Constitution, a state may not, when imposing
an income-based tax, ‘tax value earned outside its borders . . . Both the Due Process and
Commerce Clauses require that there be
‘some definite link, some minimum connection, between a state and the person, property
or transaction it seeks to tax.’
...
Maryland courts have consistently concluded that the basis of a nexus sufficient
to justify taxation is the economic reality
the parent’s business in Maryland was what
produced the income of the subsidiary. [Citing Comptroller of the Treasury v. SYL, Inc.,
375 Md. 78, cert. denied 540 U.S. 982 and
540 U.S. 1090 (2003).] Thus, the Court’s initial
inquiry is to examine the facts and determine
whether the Petitioner had real economic substance as separate business entities.
The Tax Court ultimately held that the “facts support[ed] the Comptroller’s position that enterprise dependency existed between [appellants] and the affiliated
corporations,” and therefore they lacked economic substance as separate business entities. Appellants argue
this was error, given “Superstore’s and Staples[, Inc.]’s
numerous employees, substantial operations and
interactions with third parties around the country.
The Comptroller, conversely, argues that “no one entity
under the Staples umbrella could operate independently

8a
from any of the others,” and therefore, they were not
separate business entities.
On review, we begin with an overview of Staples’
operations during the years in question. In 1998, the
Staples family of businesses underwent a reorganization, which culminated in the creation of four entities:
Staples, Inc.; Superstore; Staples the Office Superstore
East, Inc. (“Staples East”); and Staples Contract &
Commercial, Inc. (“Staples C&C”) (collectively “Staples”). Superstore and Staples C&C were wholly owned
subsidiaries of Staples, Inc. Staples East was a wholly
owned subsidiary of Superstore. Staples, Inc., Superstore, Staples East, and Staples C&C had common
officers and directors. While appellants contend the
reorganization was to facilitate an ultimately failed
merger, they concede the reorganization mostly occurred
to eliminate their tax liabilities in separate return
states3 like Maryland.4

3

A “separate return state” is a state that requires each
company with nexus in the state to file its own separate return,
regardless of whether it is part of an affiliated or consolidated
group of companies. See Chesapeake Indus., Inc. v. Comptroller of
the Treasury, 59 Md. App. 370, 373 (1984). A “combined return
state” requires members of an affiliated or consolidated group of
companies to file a combined or consolidated return. Id.
4
In their Joint Stipulation of Facts, filed in conjunction
with the Comptroller before the Tax Court, appellants conceded
they had requested representatives of Ernest & Young LLP to,
amongst other things, “reduce its state tax rate to zero for all separate return states” in August of 1996. No mention was made of
the possible merger with Office Depot at that time.

9a
Staples, Inc. was engaged in providing managerial
and administrative services, including management;
credit support functions; paying all obligations; strategic planning; and providing legal, accounting, financial, and payroll services, on behalf of Superstore,
Staples East, and Staples C&C. Superstore, Staples
East, and Staples C&C paid Staples, Inc. a fee for these
services. Additionally, Staples, Inc. provided Superstore, Staples East, and Staples C&C a cash pooling
service. “Under the cash pooling arrangement, if a
company had a negative account balance, it would borrow funds from Staples[, Inc.].” “Conversely, if a company had excess cash, it would lend funds to Staples[,
Inc.].” “At the end of each day, Staples[, Inc.] would
invest any excess funds on behalf of Superstore, Staples
East[,] and Staples C&C.” This system, according to
appellant, “allowed for efficient and effective management of the funds and reduced fees payable to third
parties (such as banks).” It is not clear from the record
what source of income, other than the fees paid by
Superstore, Staples East, and Staples C&C for the
managerial and administrative services it provided,
and the interest it earned from the cash pooling system, Staples, Inc. may have had.
Superstore, as part of the reorganization, assumed
ownership of the rights and the goodwill associated
with the use of certain valuable trademarks and other
intellectual property, which it licensed to Staples, Inc.
pursuant to a Trademarks License Agreement. Superstore also provided the franchise system services to
Staples East and Staples C&C, including the use of

10a
certain trademarks and other intellectual property;
centralized purchasing; inventory control; lease and
contract negotiations; advertising and marketing;
research and development; store site selection and
construction; store layout designs; equipment; and signage. These services accounted for one-third of Superstore’s total income.
Staples East housed retail operations in separate
reporting states, such as Maryland. Staples C&C housed
Staples’ catalog business. The services provided by
Staples, Inc. and Superstore were necessary for the
operations of Staples East and Staples C&C.
The Tax Court, in addressing whether the Comptroller could tax appellants, noted it was first required
to determine whether the four corporations had real
economic substance as separate business entities. The
court relied on the Court of Appeals’ holding in Gore
Enterprise Holdings, Inc. v. Comptroller of the Treasury,
437 Md. 492 (2014), to find appellants did not. In Gore,
the Court reviewed the Tax Court’s findings regarding
whether the corporate subsidiaries in question were
separate business entities. There, the Comptroller
attempted to tax two out of state subsidiaries based
on their relationship with their Maryland parent, and
their activities therein. One of the out of state subsidiaries managed the parent corporation’s patent
portfolio and had one employee, the other managed the
parent’s excess capital, and had three employees.
“[T]he Tax Court highlighted the subsidiaries’ dependence on [the parent company] for their income, the circular flow of money between the subsidiaries and [the

11a
parent company], the subsidiaries’ reliance on [the parent company] for core functions and services, and the
general absence of substantive activity from either
subsidiary that was in any meaningful way separate
from [the parent company].” Id. at 517.
Gore also examined Comptroller of the Treasury v.
SYL, Inc., which found the subsidiaries there were not
separate business entities. In SYL, Inc., the Court of
Appeals examined what could be considered a business
with no ‘economic substance as a separate business
entity,’ and held the subsidiaries in question, though
they did have some separate employees and expenses,
did not have economic substance. 375 Md. 78 (2003).
The SYL Court relied in part on this Court’s opinion in
Comptroller of the Treasury v. Armco Export Sales
Corp., 82 Md. App. 429 (1990). Armco involved three
separate manufacturers doing business in Maryland
that created wholly owned sales subsidiaries known as
domestic international sales corporations (“DISCs”).
“By definition, a sales DISC[,] earns income because it
buys goods from its parent company and then resells
the goods to an actual overseas customer; a commission DISC earns its income by a contractual agreement
with its parent company giving it a percentage of
each qualifying export sale made by the parent[.]”
82 Md. App. at 430-31. Regardless of type, “no activity
is performed by the DISC to earn the income.” Id. at
431. The Armco Court found that, because the out of
state DISCs were “phantom” corporations that could
“only conduct its activity and do business through
branches of its unitary affiliated parent,” the activity

12a
of the DISCs that related to Maryland could be fairly
apportioned and taxed by Maryland. Id. at 435. We
explained:
None of the [DISCs] has ever filed a Maryland
corporation income tax return or paid corporate income taxes in this state; each is a
wholly owned subsidiary of a multinational
parent doing business in Maryland and filing
a Maryland corporate tax return; each parent
is a unitary business with a unitary relationship with its DISC; in all of the tax years at
issue . . . each parent produced goods in this
state that were exported outside the United
States, generating taxable income for the
DISC which, except for the DISC, would have
accrued to the parent; none of the DISC[s] had
any tangible assets or employees anywhere;
. . . no DISC or parent was incorporated in
Maryland and none of the parent companies
had its headquarters in Maryland.
Id. at 431-32.
The Court in SYL found the reasoning in Armco
applied to the subsidiaries at issue in SYL, despite
their “ ‘window dressing’ [which was] designed to create an illusion of substance.” 375 Md. at 106. The Court
noted “[n]either subsidiary had a full time employee,
and the ostensible part time ‘employees’ of each subsidiary were in reality officers or employees of independent ‘nexus-service’ companies[;]” “[t]he annual wages
paid to these ‘employees by the subsidiaries were
minuscule[;]” and “[t]he so-called offices . . . were little
more than mail drops.” Id. “The subsidiary corporations

13a
did virtually nothing; whatever was done was performed by officers, employees, or counsel of the parent
corporations.” 375 Md. at 106. “Although officers of the
parent corporations may have stated that tax avoidance was not the sole reason for the creation of the
subsidiaries, the record demonstrates that sheltering
income from state taxation was the predominant reason for the creation of ” the subsidiaries. Id.
The Court in Gore, after discussing both SYL
and Armco, held that, though “the subsidiaries here
engaged in more substantive activities than those in
SYL,” “[i]n particular, . . . [one of the subsidiaries]
acquired patents from third parties, licensed patents
to third parties, and paid substantial fees for outside
legal counsel and other services,” these “trappings
[did] not imbue [the subsidiaries] with substance as
separate entities.” 437 Md. at 519. The parent company, the Court found, “permeate[d] the substantive
activities” of both subsidiaries, and are “so intertwined
. . . as to be almost inseparable.” Id.
In the instant case, after a discussion of the Staples reorganization and the functions assigned each
entity within that, the Tax Court concluded:
In reality, the activities of Staples[, Inc.] and
Superstore permeate the activities of each
other and Staples C&C and Staples East. As
separate entities, [appellants] could not operate independently. The facts support the Comptroller’s position that enterprise dependency
existed between [appellants] and the affiliated

14a
corporations. Thus, [appellants] were not separate business entities[.]
We agree. Here, as in Gore, the subsidiaries Staples C&C and Staples East relied on the parent companies “for their income . . . and core functions and
services.” Moreover, as in Gore, there exists “the circular flow of money between the subsidiaries and [the
parent company] . . . and the general absence of substantive activity from either subsidiary that was in
any meaningful way separate from” Staples, Inc. or
Superstore.
Appellants point to the Court’s finding in SYL,
that the subsidiaries meager expenses led to the conclusion that it had no economic substance, and argue
that Staples, Inc. and Superstore’s various expenses
differentiate them from those entities. The question in
this case, however, contrary to appellant’s allegation, is
not Staples, Inc. and Superstore’s expenses, but those
of their subsidiaries—Staples East and Staples C&C.
Those expenses, including payroll for their employees,
were fully paid and handled by Staples, Inc. Superstore
provided all of the merchandise both Staples East and
Staples C&C sold, and dictated the manner in which it
could be advertised and displayed. Staples, Inc., during
the time in question, provided the loans and banking
services to Staples East and Staples C&C. Finally, all
four entities had common officers and directors. Given
their total financial dependence on Staples, Inc., as
well as their total administrative and managerial
dependence on both Staples, Inc. and Superstore, we
hold that, here, as in Gore, the additional “ ‘window

15a
dressing[s]’ . . . and trappings do not imbue” appellants
with economic substance as separate business entities.
II.

The Tax Court did not err in finding the
Notices properly calculated the taxes due,
nor do they violate the Due Process or the
Commerce Clause of the U.S. Constitution.

Staples East and Staples C&C filed Maryland
income tax returns during the years at issue. During
an audit of these returns, auditors confirmed they had
allocated the proper amount of net income from retail
operations in the state to arrive at their Maryland
taxable income. However, the auditors also noted the
intercompany franchise fees and interest payments
made by Staples East and Staples C&C to Staples, Inc.
and Superstore. A review of the records showed neither
Staples, Inc. nor Superstore had filed Maryland income
tax returns during the audit period. It is the calculation of these taxes that we now review.
A. The Staples corporations are a unitary
business, and, therefore, can be properly
taxed under the Due Process and Commerce Clauses of the U.S. Constitution.
Appellant’s brief is primarily focused on the Tax
Court’s finding that they lacked economic substance as
separate business entities. They did, however, argue
in a footnote the Tax Court erroneously relied on its
finding that they were a unitary business to establish
sufficient nexus to Maryland in order to be taxable.

16a
However, “the unitary business principle and economic
substance inquiry under SYL are distinct inquiries
with distinct purposes.” Gore Enterprise Holdings, Inc.
v. Comptroller of Treasury, 437 Md. 492, 518 (2014)
(internal citations omitted). While the unitary business principle allows a state “to tax an apportioned
sum” of a multistate corporation’s business if it is unitary, it cannot be used to clear the constitutional hurdles of the Due Process and Commerce Clauses when
the taxpayer disputes its nexus with the State. Id. at
509 (internal citations and quotations omitted). The
economic substance inquiry is used to preliminarily
establish nexus. Once determined, courts then focus on
whether there is a unitary business, and thus whether
it can be properly taxed. Contrary to appellant’s contention, the Tax Court did not rely on the unitary business principle for nexus. Appellants conceded their
nexus to Maryland, and we have also determined the
Tax Court’s finding of nexus, through the economic substance analysis, was not error. We therefore turn to the
Tax Court’s finding that Staples was a unitary business.
“Under both the Due Process and the Commerce
Clauses of the Constitution, a state may not, when
imposing an income-based tax, ‘tax value earned outside its borders.’ ” Id. at 506-07 (internal citations
omitted). The Due Process clause requires fairness of
government activity, and is “preserved by requiring
that an outside business have a ‘minimal connection’
between the interstate activities and the taxing State,
and a rational relationship between the income

17a
attributed to the State and the intrastate values of
enterprise.’ ” Id. (internal citations omitted). The Commerce Clause “is chiefly concerned with ‘the effects of
state regulation on the national economy.’ ” Id. It
requires passing a four-part test: “that ‘the tax is
applied to an activity with a substantial nexus with
the taxing State, is fairly apportioned, does not discriminate against interstate commerce, and is fairly
related to the services provided by the State.’ ” Id. at
507-08 (internal citations omitted).
A unitary business exists “when the characteristics of ‘functional integration, centralized management,
and economies of scale’ are present” throughout its
operations. Id. at 508 (internal citations omitted). The
unitary business principle “can be used to tax an
apportioned sum” “that a [multistate] unitary business
derived from its operation within the particular state.”
Id. at 508-09 (citing MeadWestvaco Corp. ex rel. Mead
Corp. v. Illinois Dep’t of Revenue, 553 U.S. 16, 24 (2008)).
The Constitutional test “is ‘not the potential of
unitary control, but rather the actual, in fact unitariness or separateness of the subsidiary enterprises.”
Gore, 437 Md. at 531 (internal citations omitted). “The
prerequisite to a constitutionally acceptable finding of
unitary business is a flow of value, not [just] a flow of
goods.” Container Corp. of America v. Franchise Tax
Bd., 463 U.S. 159, 178 (1983). It requires “that there
be some bond of ownership or control uniting the
purported ‘unitary business.’ ” Id. at 166 (internal citations omitted). The “[s]ubstantial mutual interdependence” required “can arise in any number of ways; a

18a
substantial flow of goods is clearly one but just as
clearly not the only one.” Id. at 179 (internal citations
omitted).
The U.S. Supreme Court, in Container Corp. of
America v. Franchise Tax Bd., found the corporations
in question were a unitary business given the parent
corporation’s “assistance to its subsidiaries in obtaining used and new equipment and in filling personnel
needs that could not be met locally, the substantial
role played by [the parent corporation] in loaning
funds to the subsidiaries and guaranteeing loans provided by others . . . the ‘substantial’ technical assistance provided by [the parent corporation] . . . and the
supervisory role played by [the parent’s] officers
in providing general guidance to the subsidiaries.”
463 U.S. 159, 179 (1983).
In comparison, the Supreme Court in F.W. Woolworth Co. v. Taxation & Revenue Dept., found the corporations in question were not a unitary business
because
[t]here was little functional integration . . .
With respect to who makes the decision for
seeing to the merchandise, [store] site selection, advertising and accounting control, . . .
[e]ach subsidiary performs these functions
autonomously and independently of the parent company. . . . It further appears [the parent corporation] engaged in no centralized
purchasing, manufacturing, or warehousing
of merchandise . . . [E]ach subsidiary was
responsible for obtaining its own financing

19a
from sources other than the parent. [As for
economies of scale], [i]t appears that each subsidiary operated as a distinct business enterprise at the level of fulltime management.
With one possible exception, none of the subsidiaries’ officers during the year in question
was a current or former employee of the parent . . . [The parent corporation] did not rotate
personnel or train personnel to operate stores
. . . There was no training program that is central to transmit the [parent corporation’s]
idea of merchandising[,] . . . to the foreign
subsidiaries . . . This management decentralization was reflected in the fact that each
subsidiary possessed autonomy to determine
its own policies respecting its primary activity
—retailing. . . . [The parent corporation] had
no department or section, as such, devoted to
overseeing the foreign subsidiary operations.
458 U.S. 354, 364-67 (1982) (internal citations and quotations omitted).
The Gore Court found the subsidiaries in that case
“demonstrated integration of business functions and
personnel, centralized management through the inclusion of [the parent company’s] employees on the subsidiaries’ boards, and reliance on [the parent company]
for everything from furniture to legal services.” Gore,
437 Md. at 531. “Based on these findings,” then, the
Court found the Tax Court did not err in concluding
the businesses were unitary. Id.
The Tax Court in the instant case, after a discussion of the Staples reorganization and the functions

20a
assigned each entity therein, concluded the activities
of Staples[, Inc.] and Superstore permeate[d] the activities of each other and Staples C&C and Staples East.”
“As separate entities, [appellants] could not operate
independently.” “Thus, [appellants] were . . . part of a
unitary business enterprise.”
We agree. “[S]ubstantial mutual interdependence”
existed at all levels between Staples, Inc., Superstore,
Staples C&C, and Staples East. Staples East and Staples C&C were wholly dependent upon Staples, Inc.’s
and Superstore’s services for their income, from their
management to their merchandise. As the Supreme
Court held in Container Corp., “[w]e need not decide
whether any one [factor] would be sufficient as a constitutional matter to prove the existence of a unitary
business.” Container Corp., 463 U.S. 179-80. “Taken in
combination, at least, they clearly demonstrate that
the [Tax Court] reached a conclusion ‘within the realm
of permissible judgment.’ ” Id. at 180.
B. The Tax Court did not err in finding the
Notices properly calculated the taxes due,
and they do not violate the Due Process or
Commerce Clauses of the U.S. Constitution.
Appellants argue the Comptroller erred in failing
to use the standard apportionment formula to calculate the income attributable to Maryland. They contend, under § 10-402 of the Maryland Tax-General
Code Annotated, the Comptroller was required to multiply the taxable income of a corporation with economic

21a
substance by a specific apportionment formula, comprised of the taxpayer’s property, payroll, and sales,
in order to calculate the percentage of its income
attributable to Maryland. They argue the Comptroller
“[i]gnor[ed] the substantial property, payroll and sales
of Superstore and Staples[, Inc.],” and instead “used
the apportionment factors of Staples East and Staples
C&C to apportion Superstore’s franchise fee receipts
and Staples[, Inc.’s] interest income to Maryland.”
While acknowledging that, under § 10-402(d) the
Comptroller may, if circumstances warrant, alter the
apportionment formula to clearly reflect the income
apportionable to Maryland, appellants argue that any
“alternative formula for corporations with economic
substance should include the corporation’s own property, payroll and sales.”
The Comptroller, conversely, argues its assessments against Staples, Inc. and Superstore complied
with the law and reasonably reflected the amount of
income appellants earned in Maryland. “[T]he apportionment formula provided for in § 10-402(c) was not
appropriate to judge the Maryland income for Staples[,
Inc.] and Superstore[,]” as that apportionment formula
resulted in a zero apportionment factor and, thus, zero
income attributable to Maryland. This “would not have
been representative of the economic reality, namely,
that the use of the franchise system and cash pooling
system in the retail operations of Staples East and Staples C&C in Maryland are what produced income for
Superstore and Staples[, Inc.].” “To reflect the income
actually attributable to Maryland, the auditors thus

22a
needed to use an alternative method to allocate taxable income,” as allowed under § 10-402(d).
Section 10-402 of the Maryland Tax-General Code
Annotated states in relevant part:
(a) In computing Maryland taxable income,
a corporation shall allocate Maryland modified income derived from or reasonably attributable to its trade or business in this State in
the following manner:
...
(2) if a corporation carries on its trade or business in and out of the State, the corporation shall
allocate to the State the part of the corporation’s
Maryland modified income that is derived or reasonably attributable to the part of its trade or
business carried on in the State, in the manner
required in subsection (b), (c), or (d) of this section.
...
(c)(1) Except as provided in paragraph (2) of this
subsection, if the trade or business is a unitary
business, the part of the corporation’s Maryland
modified income derived from or reasonably attributable to trade or business carried on in the State
shall be determined using a 3-factor apportionment fraction:
1. the numerator of which is the sum of the property factor, the payroll factor, and twice the sales
factor; and
2.

the denominator of which is 4.
...

23a
(d) To reflect clearly the income allocable to Maryland, the Comptroller may alter, if circumstances
warrant, the methods under subsections (b) and
(c) of this section, including:
...
(2) the use of the 3-factor double weighted sales
factor formula method or the single sales factor
formula method;
(3) the weight of any factor in the 3-factor formula;
§ 10-402 Md. Tax-General Ann. (West 2003 Supp.).5
COMAR 03.04.03.08 details roughly the same
system, including the three-factor formula, for apportionment of income for corporations. COMAR
03.04.03.08(F)(1), however, states:
(1) If an apportionment formula does not fairly
represent the extent of a corporation’s activity
in the State, the Comptroller may alter the
formula or its components.
COMAR 03.04.03.08(F)(1) (2002).
In their joint stipulations of fact, the parties agreed
that the assessments were calculated as follows:
16. For the Years in Issue, pursuant to the audit
narrative, the auditors assessed Superstore
5

We note, under NCR Corp. v. Comptroller of the Treasury,
Income Tax Div., 313 Md. 118, 125 (1988), we use the statutory
and regulatory scheme as it was during the tax years in question.
Except for minor changes in organization, the statute remained
consistent through the years at issue.

24a
by starting with Superstore’s total franchise
fee receipts received from both Staples East
and Staples C&C. Then the auditor determined the percentage of the total franchise fee
receipts that were attributable to Staples
C&C. Next, the auditor (1) multiplied the
percentage of franchise fee receipts received
from Staples East by Staples East’s Maryland
apportionment factor as reported by Staples
East on its Maryland income tax return, and
(2) multiplied the percentage of franchise fee
receipts received from Staples C&C by Staples C&C’s Maryland apportionment factor
as reported by Staples C&C on its Maryland
income tax return. These two apportionment
factors were added together to arrive at a
blended apportionment factor. This blended
apportionment factor was then multiplied by
the total franchise fee receipts received from
both Staples East and Staples C&C to determine Superstore’s purported Maryland taxable income.
17. For the fiscal years ended January 30, 1999
through February 1, 2003, pursuant to the
audit narrative, the auditors assessed Staples[, Inc.] by first netting the interest income
received from and/or paid by Staples East and
Staples C&C to Staples[, Inc.] (the “Net Interest Income”)[.] Then the auditor determined
the percentage of the Net Interest Income
that was attributable to Staples East and
the percentage of the Net Income that was
attributable to Staples C&C. Next, the auditor
(1) multiplied the percentage of Net Interest
Income received from or paid by Staples East

25a
by Staples East’s Maryland apportionment
factor as reported by Staples East on its Maryland income tax return, and (2) multiplied the
percentage of Net Interest Income received
from or paid by Staples C&C by Staples
C&C’s Maryland on its Maryland income tax
return. These two apportionment factors were
added together to arrive at a blended apportionment factor. This blended apportionment
factor was then multiplied by the Net Interest
Income to determine Staples[, Inc.’s] purported Maryland taxable income.
18. For the fiscal year ended January 31, 2004
pursuant to the audit narrative, the auditors
assessed Staples[, Inc.] by starting with the
interest income received from Staples C&C.
The auditor then multiplied the interest
income received from Staples C&C by Staples
C&C’s Maryland apportionment factor as
reported by Staples C&C on its Maryland
income tax return to determine[, Inc.’s] purported Maryland taxable income.
Reviewing the same apportionment method used in
the case sub judice, the Gore Court, based on § 10-402(d)
and COMAR 03.04.03.08(F)(1), held the Comptroller is
allowed to use an alternative method when “the threefactor formula set forth by [§] 10-402(a)(2) would have
yielded an apportionment factor of zero, which did
not fairly represent the subsidiaries’ activity in Maryland.” 437 Md. at 529. Nevertheless, appellants argue
the three-factor formula is more appropriate for corporations with economic substance. We disagree and
find no reason in either statute or case law for the

26a
exception, nor would appellants qualify for such an
exception, given the Tax Court’s finding appellants did
not have economic substance. As such, the Comptroller
was duly authorized to use an alternative apportionment method.
Appellant next argues the Notices distorted the
amount of income attributable to Maryland because
the Comptroller ignored the expenses incurred by
Superstore and Staples, Inc. to generate that income.
They point to the testimony presented by their expert,
Dr. Brian Cody, that the Comptroller’s formula “simply
look[ed] at the receipts, at the franchise revenue, and
then appl[ied] a tax rate, which is meant to tax profits,
. . . [which] produc[ed] a distorted result.” They contend the Tax Court dismissed their expert’s testimony
based on an erroneous finding that the expert assumed
Staples operated as a single entity prior to 1998, which
they claim has no basis in the record. Furthermore,
they contend the Comptroller erred in failing to start
the calculation of the tax due with the federal taxable
income of Superstore and Staples, Inc.
The Comptroller argues that here, as in Gore, the
alternative apportionment method was proper. This
formula used the franchise fees and interest payments
that Staples East and Staples C&C made to Superstore and Staples, Inc. for activities in Maryland to
determine the income attributable to Maryland for
Superstore and Staples, Inc. Staples East’s and Staples
C&C’s tax returns specifically identified the income
earned by Staples, Inc. and Superstore through franchise fees and interest fees, and allocated their retail

27a
activities among different states, including Maryland.
“This data made clear to the Comptroller how much of
the appellants’ income was related to activities in, and
thus could be taxed by, Maryland.” “Staples[, Inc.] and
Superstore were then provided the opportunity to
account for any expenses they incurred to generate
this income” “[b]ut declined to do so.” The Comptroller
argues, under § 13-402(a)(3), it was thus required to
use the “best information in the possession of the tax
collector.” They contend this method did so.
“Our review of apportionment [formulas] is
guided by the Supreme Court’s analysis in Container
Corp.” Gore, 437 Md. at 532 (citing Container Corp.,
463 U.S. at 169-70 (internal citations and quotations
omitted)).
[A]n apportionment formula must, under both
the Due Process and Commerce Clauses, be
fair. The first, and again obvious, component
of fairness in an apportionment formula is
what might be called internal consistency—
that is, the formula must be such that, if
applied by every jurisdiction, it would result
in no more than all of the unitary business’s
income being taxed. The second and more difficult requirement is what might be called
external consistency—the factor or factors
used in the apportionment formula must
actually reflect a reasonable sense of how
income is generated. The Constitution does
not invalidat[e] an apportionment formula
whenever it may result in taxation of some
income that did not have its source in the taxing State . . . Nevertheless, we will strike

28a
down the application of an apportionment formula if the taxpayer can prove by clear and
cogent evidence that the income attributed
to the State is in fact out of all appropriate
proportions to the business transacted in
that State, or has led to a grossly distorted
result[.]”
Gore, 437 Md. at 532 (citing Container Corp.,
463 U.S. at 169-70 (internal citations and quotations omitted)).
Using the Container Corp. analysis, the Gore
Court found the apportionment formula at issue was
“internally consistent” because, “ ‘if applied by every
jurisdiction . . . [it] ‘would result in no more than all
of the unitary business’ income being taxed.’ ” Gore,
437 Md. at 532 (internal citations omitted). “Regarding
external consistency,” “[t]he Comptroller’s apportionment formula captured [the parent company’s] expenses
in Maryland—expenses that simultaneously constituted income” for the out of state subsidiaries. Id. at
533. “Thus, the formula reflects ‘a reasonable sense of
how [the out of state subsidiaries] income is generated.” Id. The Court then concluded:
[T]he Tax Court did not err in holding that the
Comptroller had the authority to tax [the out
of state subsidiaries]. [They] are subsidiaries
with “no economic substance as separate business entities” from their parent, Gore. Therefore, these subsidiaries are taxable entities
under SYL. We also conclude that the Tax
Court did not err in upholding the apportionment formula used by the Comptroller. This

29a
apportionment formula passes constitutional
muster through a justified application of the
unitary business principle.
Id. at 533.
The Tax Court in the instant case, noting Gore,
held:
The [Gore] Court stated that the apportionment formula used by the Comptroller
should reflect a reasonable sense of how [the
petitioner’s] income is generated. The apportionment formula used by the Comptroller in
[Gore] captured Gore’s expenses in Maryland
—expenses that simultaneously constituted
income for its subsidiaries. The Comptroller’s
responsibility was to capture and tax only
that income of the Petitioners that was reasonably attributable to Maryland.
Superstore, in this case, received royalty
income which has been taken as an expense
by Staples C&C and Staples East. Staples[,
Inc.] received interest income which has been
taken as an expense by Staples C&C and
Staples East. Using an apportionment methodology identical to that used in Gore, the
Comptroller’s assessments in this case have
captured the royalty and interest expenses of
Staples C&C and Staples East—expenses
that simultaneously constituted the income
for Superstore and Staples[, Inc.].
As in Gore, “[t]he Comptroller’s apportionment
formula captured [Staples East’s and Staples C&C’s]
expenses in Maryland—expenses that simultaneously

30a
constituted income” for Staples, Inc. and Superstore.
We find, then, the Tax Court did not err in holding “the
formula reflects ‘a reasonable sense of how [Staples,
Inc.’s and Superstore’s] income is generated,” and
“passes constitutional muster.”
It, further, was not error for the Comptroller to
base its calculations on income received by Staples,
Inc. and Superstore, from Staples East and Staples
C&C, instead of appellant’s federal taxable income.
Appellants cite Comptroller of the Treasury v. Gannett
Co., Inc., for the proposition that the Comptroller must
accept the figure adopted as taxable income on the
corporate taxpayer’s consolidated federal return in calculating the taxpayer’s Maryland modified income.
Gannett, however, concerned discretionary federal
taxable income of the taxpayer, and held the Comptroller did not have the authority under the Internal Revenue Code to impute interest income which was not
reported on the taxpayer’s federal income tax returns.
356 Md. 699 (1999). It is, therefore, clearly distinguishable. Gore, in which the Court of Appeals explicitly
approved the method at issue, is indistinguishable.
Moreover, § 10-402 does not require the Comptroller
to “start” its calculations of the Maryland modified
income with the corporation’s federal taxable income.
The use of an alternative method, when the method set
“by [§] 10-402(a)(2) would have yielded an apportionment factor of zero, which did not fairly represent the
subsidiaries’ activity in Maryland” was appropriate.
Gore, 437 Md. at 529.

31a
Appellants, nevertheless, contend that the Comptroller’s failure to take expenses into account ultimately led to a distortive calculation, and violates the
Due Process and Commerce Clauses of the U.S. Constitution. The Comptroller argues they could not take
expenses into account because neither Staples, Inc. nor
Superstore provided any.
Gore is again instructive. There, the Court noted
expenses “were deducted from the income if the [subsidiary] made an affirmative demonstration that the
expenses were directly related to the income.” Gore,
437 Md. at 530. The subsidiary, however “made no
attempt to allocate” expenses to the income it derived
from the Maryland based parent corporation. Id. “Consequently, [the out of state subsidiaries’] tax liability
was calculated by multiplying royalties” or “interest
paid by [the Maryland parent corporation] times [the
Maryland parent corporation’s] apportionment formula.” Id.
In the present case, Mary Wood, the Manager of
Business and Tax Audits for the Comptroller, had the
following exchange during direct examination before
the Tax Court:
[Counsel for the Comptroller]: When using
this apportionment formula and applying in a
situation like this, is the taxpayer given any
opportunity to present any numbers or items
to adjust the income figures that were used on
those?

32a
[Ms. Wood]:

Yes, they are.

[Counsel for the Comptroller]: And what are
they allowed to provide, or what do we encourage them to provide?
[Ms. Wood]: At the audit site, the Auditors
inform the Taxpayers that if they have expenses
that are attributable to the royalties or the
interest, to give those to use, and they have to
be verifiable amounts, of course, but then we
would apply that accordingly.
[Counsel for the Comptroller]: At the time of
the audit, did either Petitioners, either Petitioner in this case provide any type of expenses
to offset the income?
[Ms. Wood]:

No, they did not.

[Counsel for the Comptroller]: Since the time
of the audit to today’s date, have they provided any such information?
[Ms. Wood]:
[The Court]:
expenses?

No, they have not.
Do you believe there exists any

[Ms. Wood]: I haven’t seen anything that’s
verifiable, no. I, just personal, you just want as
a...
[The Court]: No, professionally. Do you believe,
based upon your experience, whether there
are any expenses that you could use to offset
the income?

33a
[Ms. Wood]: I would say most likely not. And
if there were any, I would say they would be
minimal.
On cross, appellants did not refute that Staples,
Inc. and Superstore had failed to provide any verifiable
expenses, but instead questioned Ms. Wood’s assertion
that if any expenses did exist, they would be minimal. Dr. Brian Cody, appellants’ expert witness, testified that the apportionment method used produced a
“grossly distorted” outcome to fail to include the various expenses Staples, Inc. and Superstore incurred,
but said he “did not know how to answer” when the
Comptroller asked how they were supposed to determine those amounts.
In sum, appellants did not provide “clear and
cogent evidence” of their expenses, nor did they “ma[k]e
an affirmative demonstration that the expenses were
directly related to the income” earned in Maryland.
Gore, 437 Md. at 530; Container Corp., 463 U.S. at 169-70
(internal citations and quotations omitted)). Therefore,
the Comptroller acted properly in excluding any estimated expenses in its calculations.
The Tax Court found Dr. Cody’s testimony about
appellants’ expenses “not persuasive” because his opinion
“was premised on the assumption that Staples operated as a single entity prior to 1998.” This, appellants
contend, was in error. However, during his direct examination, Dr. Cody explicitly stated that “prior to the
restructuring, we had the business in one company, in
Staples.” Dr. Cody further testified he did not take into

34a
account the royalty payments made before the restructuring by Staples, Inc. to Staples Properties, Inc. (“Staples Properties”), which was subsumed by Superstore
in the reorganization, in doing an analysis of the
distortedness of the Notices at issue. Additionally,
Ms. Wood also testified Dr. Cody’s analysis was flawed
because of his failure to take the restructuring into
account. On review, we give deference to the decisions
of administrative agencies about the persuasiveness
and weight of an expert witnesses’ testimony. Geier v.
Maryland State Bd. of Physicians, 223 Md. App. 404,
442 (2015) (internal citations omitted).
Appellants further argue the Comptroller’s method
“tax[ed] . . . income . . . that is not properly attributable
to the State,” ultimately violating the Due Process and
Commerce Clauses of the U.S. Constitution. However,
“the taxpayer always has the ‘distinct burden of showing ‘by clear and cogent evidence’ that [the state
tax] results in extraterritorial values being taxed.’ ”
Container Corp., 463 U.S. at 175 (internal citations
omitted). Staples C&C and Staples East allocated their
activities among the states they conducted business,
which “made clear to the Comptroller how much of the
appellants’ income was related to activities in, and
thus could be taxed by, Maryland.” Moreover, Ms. Wood
testified, that the royalties, franchise fees, and interest
figures used were obtained from a worksheet provided
by appellants.
In affirming the apportionment method used by
the Comptroller, the Tax Court noted “[t]he reasonableness of these assessments is readily apparent when

35a
the uncontested assessments against [Staples Properties] for the [period prior to the reorganization is] considered.” It found
[I]n 1993, Staples placed its intellectual property in [Staples Properties], licensing the use
of those intangibles back to Staples, Inc. . . .
Staples Properties’ royalty income, paid
to it by Staples, Inc. . . . [was] $132,002,909 in
1997. The uncontested tax assessed by the
Comptroller . . . [was] $488,631 in 1997, [with]
an average annual increase of approximately
65.5%. In 1997, the apportionment factor, as
derived from Staples, Inc.’s own calculations,
was .052881.
In 1998, the first year the reorganization
took effect and the first year of the audit
period, Petitioners reported royalty payments,
now paid by Staples C&C and Staples East to
Superstore, in the amount of $186,387,520.
The apportionment factor, as derived from
Staples C&C’s and Staples East’s own calculations, was .073377 and the tax assessed for
1998 was $957,358. Staples argues this was in
error. We disagree.
Appellants argue this too was in error, as Staples
Properties was not in existence during the audit period,
and the apportionment factor used for Staples Properties included expenses. “With little or no analysis, the
Tax Court stated that the Notices are not distortive
because of taxes that Staples Properties paid.” “[I]t is
not ‘readily apparent’ how a comparison of the Notices
to the tax assessed to Staples Properties justifies the

36a
Notices.” The Comptroller, conversely, argues a comparison to Staples Properties is helpful in establishing
the reasonableness of the apportionment method chosen.
We note initially the Tax Court clearly did not base
its analysis of the appropriateness of Notices on a
comparison of the taxes paid by Staples Properties,
but rather, on the Court’s opinion in Gore. It is “readily
apparent” that a comparison of the royalty income paid
to Staples Properties before the reorganization, and
the royalties paid to Superstore, Properties’ heir, after
the reorganization, would be a helpful benchmark in
analyzing the ‘distortedness’ of the Notices assessed.
Nevertheless, we do not find it was error for the Tax
Court to have included the comparison in further substantiating its analysis.
“A court’s role in reviewing an administrative
agency adjudicatory decision is narrow; it is limited
to determining if there is substantial evidence in
the record as a whole to support the agency’s findings and conclusions, and to determine if the administrative decision is premised upon an erroneous conclusion of law.” Maryland Aviation Admin. v. Noland,
386 Md. 556, 571 (2005) (internal citations and quotations omitted). We find the Tax Court’s findings were
fully supported by the record as a whole, and its conclusions were not premised upon any erroneous conclusions of law. We therefore affirm.

37a
III. The Tax Court properly waived interest.
Our review of the factual determinations of the
Tax Courts “is narrow,” and “is ‘limited to determining
if there is substantial evidence in the record as a whole
to support the agency’s findings and conclusions.” Frey
v. Comptroller of the Treasury, 184 Md. App. 315 (2009),
aff ’d, 422 Md. 111, 181-85 (“Frey I”). “It is not our job
to substitute our judgment for that of the Tax Court.”
Id. at 331.
In Frey I, this Court found the Tax Courts were
statutorily authorized to waive the imposition of interest. 184 Md. App. at 422 (internal citations omitted). In Frey v. Comptroller of Treasury (“Frey II”), 422
Md. 111, 187 (2011), the Court of Appeals, in affirming
this Court, further stated “a tax collector’s assessment
of interest will not be overturned unless the complaining party provides affirmative evidence demonstrating
reasonable cause for the abatement or the tax collector
has made an obvious error.” Id. at 187.
Noting Frey I, the Tax Court in the instant case
found that, given the evolution in the law through SYL
and Gore, amongst others, appellants had a reasonable
basis for challenging the law and acted in good faith.
We find nothing in the record to contradict the Tax
Court’s findings. We therefore affirm.
JUDGMENT OF THE CIRCUIT
COURT FOR ANNE ARUNDEL
COUNTY AFFIRMED IN PART
(WITH RESPECT TO THE ASSESSMENT OF TAX) AND REVERSED

38a
IN PART (WITH RESPECT TO
WAIVER OF PARTIAL INTEREST);
COSTS TO BE EVENLY DIVIDED
BETWEEN THE PARTIES.

39a
APPENDIX B
PETITION OF

*
*
STAPLES, INC., and
STAPLES THE OFFICE *
*
SUPERSTORE, LLC.,
*
THE DECISION OF THE *
MARYLAND TAX COURT *
DECISION DATED
*
May 27, 2015
*
*
Re: Supervisors of
*
Assessments of
Anne Arundel County *
*
Md. Tax Court
*
#09-IN-00-0148
*
09-IN-00-0149
*
*
*
*
*
*

IN THE
CIRCUIT COURT
FOR
ANNE ARUNDEL
COUNTY

Case No.
C-02-CV-15-002009
*

*

*

*

MEMORANDUM OPINION
(Filed Jan. 10, 2017)
On December 21, 2015, Petitioners, Staples, Inc.
(“Staples”), and Staples the Office Superstore, LLC’s
(formerly Staples the Office Superstore, Inc., “Superstore”) (jointly, “Petitioners”), and Cross-Petitioner the
Comptroller of Maryland (“Comptroller”) came before
this Court for oral argument. Petitioners and the
Comptroller have appealed the May 27, 2015 decision
of the Maryland Tax Court (“Tax Court”). Petitioners
are out-of-state businesses with affiliated retail businesses in Maryland. Those affiliates are Staples the
Office Superstore East, Inc. (“Staples East”), Staples

40a
Contract and Commercial (“Staples C&C”) (jointly,
“Maryland Affiliates”). Petitioners have appealed the
Tax Court’s finding that they realized taxable income
in Maryland as a result of their Maryland Affiliates’
retail operations in this State. The Comptroller has
appealed the Tax Court’s decision to waive (also referred
to as “abate”) penalties and interest assessed against
Petitioners.
I.

BACKGROUND

On January 28, 2008, the Comptroller issued a
Notice of Assessment to Superstore for the years 1999
through 2004. On that same date, the Comptroller issued
a Notice of Assessment to Staples for the years 1999
through 2004. On January 26, 2009, the Comptroller
issued Notices of Final Determination to the Petitioners affirming the assessments. Those Final Determinations upheld the Comptroller’s assessment of taxes,
interest and penalties for the 1999 through 2004 tax
years (“Tax Years”) in the aggregate amount of
$14,392,364. The assessment against Superstore was
$6,340,835.00 in taxes, $5,968,207.00 in interest, and
a $1,585,210.00 penalty. The assessment against Staples was $213,325.00 in taxes, $231,456.00 in interest,
and a $53,331.00 penalty.
On February 20, 2009, the Petitioners appealed
those assessments to the Tax Court.
On May 28, 2015, the Tax Court affirmed the
Comptroller’s assessments, but waived the penalties
imposed against Petitioners, and the interest that had

41a
accrued from the date of the appeal to the Tax Court
through the date of the Tax Court’s ruling (2/20/2009
thru 5/28/2015). Specifically, the Tax Court found: (1)
that Petitioners had sufficient contacts with Maryland
to require them to file State tax returns and to pay
income taxes for 1999 through 2004; (2) that the Comptroller had fairly apportioned to both Petitioners, their
Maryland-related income producing activities, and;
(3) that because Petitioners had “a reasonable basis for
challenging the law and acted in good faith”, all penalties, and interest for the (roughly) 6-year/3-month
period referred to above, should be waived.
On June 18, 2015, Staples and Superstore filed
this petition for judicial review. On July 10, 2015, the
Comptroller filed a cross-petition for judicial review.
For the reasons set forth below, this Court will affirm
the Tax Court’s decision regarding Petitioners’ assessments, but return the case to the Tax Court for it to
reconsider its decision to waive interest and penalties.
II.

STANDARD OF REVIEW

“Despite its name, the Tax Court is not a court;
instead, it is an adjudicatory administrative agency in
the executive branch of state government.” Furnitureland South, Inc. v. Comptroller, 364 Md. 126, 138
n. 8 (2001). Accordingly, this Court applies the same
standard of review in reviewing a Tax Court decision
as is applicable to other agencies. The Court of Appeals
said in State Dep’t of Assessments & Taxation v. Consol.
Coal Sales Co., 382 Md. 439 (2004):

42a
Because the Maryland Tax Court is an administrative agency, [t]he standard of review for Tax
Court decisions is generally the same as that for
other administrative agencies. When we consider
an administrative agency decision, we review the
agency’s decision applying the same statutory
standards as used by the preceding reviewing
court.
Section 13-532(a) . . . provides: (a)(1) A final order
of the Tax Court is subject to judicial review as
provided for contested cases in §§ 10-222 and
10-223 of the State Government Article. (2) Any
party to the Tax Court proceeding, including a governmental unit, may appeal a final order of the
Tax Court to the circuit court. (b) When an order
of the Tax Court is subject to judicial review, that
order is enforceable unless the reviewing court
grants a stay upon such condition, security or bond
as it deems proper. Section 13-532 [.]
Accordingly, under this standard, a reviewing
court is under no statutory constraints in reversing a Tax Court order which is premised solely
upon an erroneous conclusion of law.
On the other hand, where the Tax Court’s decision
is based on a factual determination, and there
is no error of law, the reviewing court may not
reverse the Tax Court’s order if substantial evidence of record supports the agency’s decision.
Id., 382 Md. at 453-454 (citations omitted).
Review of the Tax Court’s decision regarding the
Comptroller’s assessments begins with the presumption that they are prima facie correct. Md. Code Ann.

43a
Tax-General, §13-411. The taxpayer challenging the
assessment therefore has the burden to prove that it
is inaccurate or erroneous. Comptroller of the Treasury
v. Clise Coal, Inc., 173 Md. App. 689, 698-700 (2007).
“Absent affirmative evidence in support of the relief
being sought or an error apparent on the face of the
proceeding from which the appeal is taken, the decision, determination, or order from which the appeal is
taken shall be affirmed.” Md. Code Ann. Tax-General,
§13-528(b).1
III.

ISSUES

Petitioners present four questions for review:
(1) Did the Tax Court commit error when it failed
to find that Superstore and Staples were separate business entities with economic substance?
(2) Did the Tax Court commit error when it failed
to find that the Comptroller’s assessments
improperly calculated the tax due?
(3) Did the Tax Court commit error when it failed
to find that the Comptroller’s assessments
violated Maryland law in that the Comptroller’s apportionment methodology grossly distorted the income of Superstore and Staples
attributable to Maryland?
(4) Did the Tax Court commit error when it failed
to find that the Comptroller’s assessments
1

Statutory citation are to the Md. Tax General Article (1988,
1997 Repl. Vol. “TG”).

44a
violated the Due Process Clause and the Commerce Clause of the U.S. Constitution?
Cross-Petitioner Comptroller presents two questions for review;
(1) Did the Tax Court improperly waive interest
on the tax assessments against Petitioners
based upon its conclusion that the taxpayers
acted in good faith in filing Tax Court petitions challenging the tax assessments made
against them?
(2) If the Tax Court did not improperly waive
interest based upon good faith, did the Tax
Court act arbitrarily in is manner of waiving
interest?
IV.
A.

DISCUSSION
Tax Assessment

A Maryland retailer’s use of its out-of-state affiliate’s intangible assets generally produces income for
the out-of-state affiliate, which income is taxable in
Maryland. See, Comptroller of the Treasury v. Syl, Inc.,
375 Md. 78, cert denied, 540 U.S. 984 and 540 U.S. 1090
(2003); see also, Classics Chicago, Inc., v. Comptroller,
189 Md. App. at 713-716 (use of the intellectual property in the taxing state produces income to the owner
of that intellectual property).
Here, the Tax Court found that Petitioners—
through their out-of-state affiliates—realized taxable
income, subject to taxation by Maryland, from: (1)
franchise fees paid to Petitioners by the Maryland

45a
Affiliates, Staples East, and Staples C&C; and, (2) the
Maryland Affiliates’ use of Petitioners’ intellectual
property in Maryland. Specifically, the Tax Court found
that:
After . . . 1998, Staples was engaged in providing the managerial and administrative services,
including cash pooling and management, credit
support functions, paying all obligations, and
providing legal, accounting, financial and payroll
services, on behalf of Superstore, Staples East and
Staples C&C. Superstore and Staples C&C were
wholly owned subsidiaries of Staples and Staples
East was a wholly owned subsidiary of Superstore.
Superstore provided the franchise system services
to Staples East and Staples C&C, including centralized purchasing, inventory control, lease and
contract negotiations, advertising and marketing,
research and development, store site selection and
construction, equipment and signage.
Superstore, Staples C&C, and Staples East relied
on Staples for corporate necessities, such as cash
and credit, payment of their bills, the provision
of legal, financial and accounting services, and
strategic planning. Staples C&C and Staples East
relied on Superstore for purchasing goods, advertising and marketing, inventory control, site selection, store construction and layout, licenses to use
the trademarks and other intellectual property,
and research and development. In reality, the
activities of Staples and Superstore permeate the
activities of each other and Staples C&C and
Staples East. As separate entities, the Petitioners
could not operate independently. The facts support

46a
the Comptroller’s position that enterprise dependency existed between the Petitioners and the affiliated corporations. Thus, the Petitioners were not
separate business entities, are a part of unitary
business enterprise, and accordingly, there is nexus
with the State of Maryland.
(Emphasis added).
Petitioners argue that the Comptroller was required
to use the 3-factor formula of TG §10-402(c) to determine their Maryland taxable income. It provides:
§ 10-402. Corporate allocations of income
In general
(a) In computing Maryland taxable income, a corporation shall allocate Maryland modified income
derived from or reasonably attributable to its
trade or business in this State in the following
manner:
(1) if a corporation carries on its trade or business wholly within the State, the corporation shall
allocate to the State all of the Maryland modified
income of the corporation; and
(2) if a corporation carries on its trade or business in and out of the State, the corporation shall
allocate to the State the part of the corporation’s
Maryland modified income that is derived from or
reasonably attributable to the part of its trade or
business carried on in the State, in the manner
required in subsection (b), (c), or (d) of this section.
....

47a
Determination by 3-factor formula
(c)(1) Except as provided in paragraph (2) of this
subsection, if the trade or business is a unitary
business, the part of the corporation’s Maryland
modified income derived from or reasonably
attributable to trade or business carried on in the
State shall be determined using a 3-factor apportionment fraction:
(i) the numerator of which is the sum of the property factor, the payroll factor, and twice the sales
factor; and
(ii)

the denominator of which is 4.

Petitioners argue that the Comptroller’s use of a
non-statutory apportionment formula, rather than the
3-factor formula of TG §10-402(c), attributed income to
Maryland out of proportion to the business their transacted in the State. Petitioners identify evidence they
contend would have reduced their liability had the
Comptroller applied the statutory formula.
In Gore Enterprise Holdings, Inc. v. Comptroller,
437 Md. 492 (2014), the Court of Appeals held that
the Comptroller is not limited to statutory and regulatory formulae in apportioning taxes, unless the nonstatutory formula unfairly distorts the taxpayer’s
activities in Maryland. Instead, States are permitted
to calculate a “ ‘rough approximation’ of the corporate
income that is ‘reasonably related to the activities
conducted in the taxing State.’ ” Exxon Corporation
v. Wisconsin Dept. of Rev., 447 U.S. 207, 223 (1980)
(internal citations omitted); see also, Xerox Corp. v.

48a
Comptroller, 290 Md. 126, 139 (1981). In that regard,
“[s]tates have wide latitude in the selection of apportionment formulas and that a formula-produced
assessment will only be disturbed when the taxpayer
has proved by ‘clear and cogent evidence’ that the
income attributed to the State is in fact ‘out of all
appropriate proportion to the business transacted . . .
in the State’ or has ‘led to a grossly distorted result.’ ”
Moorman Manufacturing Co., v. G.D. Bair, 437 U.S.
267, 274 (1978).
Accordingly, Petitioners carried the burden of
proving, by clear and cogent evidence, that the Comptroller’s non-statutory formula produced a tax liability
out of all appropriate proportion to the business transacted in Maryland, or led to “a grossly distorted result.”
Id.
The evidence before the Tax Court included Agreements between Petitioners and their Maryland Affiliates, and Petitioners’ federal income tax returns. Those
documents identified income Petitioners had received
from the use of the franchise system and cash pooling
system by those affiliates. The franchise agreements,
administrative service agreements, and promissory
notes, confirm that franchise fee income and interest
income were directly derived from the Maryland Affiliates retail activities in Maryland. Moreover, the
Maryland tax returns of the Maryland Affiliates the
franchise fee and interest income earned by Petitioners and allocated the retail activities among the states,
including Maryland.

49a
Petitioners’ evidence was, for the most part,
premised upon their position that the Comptroller was
required to apply the statutory factors. That is, Petitioners tailored their evidence to the TG § 10-402(c)
factors. As a result they offered little proof demonstrating that the Comptroller’s formula—which it had
“wide latitude” to apply—produced a disproportionate,
distorted, arbitrary, or unreasonable tax liability.
For those reasons, the Tax Court’s factual findings
were not clearly erroneous, and it committed no legal
error in upholding the Comptroller’s tax assessment.
B.

Interest and Penalty Waiver

If a taxpayer fails to pay a tax liability when the
tax is due, the Comptroller “shall assess interest on the
unpaid tax from the due date to the date on which the
tax is paid.” TG § 13-601(a). (Emphasis added). Similarly, if a taxpayer fails to pay a tax when due, the
Comptroller “shall assess a penalty not exceeding 10%
of the unpaid tax. TG § 13-701(a). (Emphasis added).
The Comptroller did both in the case before this Court.
Tax Gen. Art., § 13-528(a) empower the Tax Court
to “reassess or reclassify, abate, modify, change or alter
any . . . assessment . . . appealed to the Tax Court.”
T.G. § 13-528(a). The Tax Court did both in the case
before this Court; specifically, it abated (waived) those
penalties, and altered (reduced) most of the interest
assessments referred to above.

50a
The Court of Appeals held in Frey v. Comptroller,
422 Md. 111 (2011), that the Tax Court has the “full
power to hear that appeal and abate any assessment
including interest and penalties.” 422 Md. at 184-85.
With regard such abatements, the Court said:
Appeals to the Tax Court [including appeals from
penalty and interest assessments] shall be heard
de novo and conducted in a manner similar to a
proceeding in a court of general jurisdiction sitting
without a jury. The party appealing an assessment, however, bears the burden of proving that
the assessment was in error. To do so, the party
must provide affirmative evidence in support of
the relief being sought, or the Tax Court must find
an error apparent on the face of the proceeding
from which the appeal is taken. In the absence of
either of these conditions, the decision, determination, or order from which the appeal is taken shall
be affirmed.
....
[W]hen the Tax Court considers appeals from a tax
collector’s refusal to abate an interest assessment,
that court considers whether the party has demonstrated with affirmative evidence that reasonable
cause exists or that the [Comptroller]’s decision
was an obvious error. Under this standard, a
[Comptroller]’s assessment of interest will not be
overturned unless the complaining party provides
affirmative evidence demonstrating reasonable
cause for the abatement or the [Comptroller] has
made an obvious error.

51a
422 Md. at 186-87 (citations and interior quotation
marks omitted). The Tax Court’s review of a penalty
and/or interest assessment is deferential to the discretion of the Comptroller. Id., at 167.
In the case before this Court, the Tax, Court
addressed this issue in its Memorandum Opinion as
follows:
The final question is whether interest and
penalties should be waived under Tax-General
Article Sections 13-606 (waiver of interest) and
13-714 (waiver of penalties). In Frey v. Comptroller
of the Treasury, 184 Md. App. 315, 421 (2009)
[affirmed, Frey v. Comptroller, 422 Md. 111 (2011)]
the Court of Special Appeals referred to the reasonable cause exception set forth in the applicable
statutes. The Court finds that the Petitioners had
a reasonable basis for challenging the law and
acted in good faith. The state of the law has
evolved through various court decisions[.]
For all of the above reasons, the Maryland Tax
Court . . . abates interest after the date of filing
this appeal in the Maryland Tax Court (February
20, 2009) until the date of this Order, and abates
all penalties.
The Tax Court’s interest and penalty waivers
can be affirmed only on the grounds set forth in its
decision. Gore Enterprise Holdings, Inc., supra, 437
Md. at 503. This Court may not search the record to
find a basis to support an administrative agency’s conclusions. Carriage Hill Cabin John, Inc. v. Maryland
Health Resources Planning Commission, 125 Md. App.

52a
183, 213 (1999). Rather, this Court may only uphold
an agency’s decision if it is sustainable on the administrative agency’s findings and for the reasons stated
by it. Id. Because courts cannot substitute their judgment for that of an agency, a court may affirm an
administrative agency’s final decision only on the
grounds on which it decided it after determining the
matter. Evans v. Burris, 401 Md. 586, 593 (2007).
As a “necessary corollary, the agency must explain
the basis for its decision.” Critical Area Comm’n v.
Moreland, 191 Md. App. 260, 283 (2010), rev’d, 418
Md. 111 (2011). The agency’s explanation of its decision must be detailed enough to permit a reviewing
court to understand the reasons for the decision. Id.
Failure to meet that requirement prevents the reviewing court from determining whether the decision is
supported by substantial evidence. Becker v. Anne
Arundel County, 174 Md.App.114, 138 (2006). “An
administrative agency decision that fails to provide a
reasoned analysis may be deemed arbitrary on review.”
Id.
Here, the Tax Court appears to have waived Petitioners’ interest and penalties because they made
good faith legal arguments during a time—presumably before their 2009 tax appeal—that the law was
“evolv[ing] through various court decisions.” The Tax
Court did not identify the evolving law, or its relevance
to Petitioners’ appeal. However, in rejecting Petitioners’ appeal from the assessment, the Tax Court said:
“Maryland courts have consistently concluded that the
basis of a nexus sufficient to justify taxation is the

53a
economic reality of the fact that the parent’s business
in Maryland was what produced the income of the subsidiary.” It is difficult to reconcile the Tax Court’s reference to what it seemed to say was well-settled law
governing taxation of subsidiaries, with its finding that
an evolution in the law provided a “reasonable basis
for [Petitioners] challenging the law[.]”
Moreover, the Tax Court’s decision to waive interest from February 28, 2009 to May 28, 2015 is not
explained. Those are, respectively, the dates on which
Petitioners filed their Tax Court appeal, and on which
the Tax Court decided the case; that is, the 6 years during which the Tax Court held the appeal under consideration. More than $5 million in interest accrued
during that time.
Petitioners did not request such a waiver, the
Comptroller had no opportunity to oppose it, and the
Tax Court did not identify the evidentiary basis for the
waiver it granted to Petitioners.2 Accordingly, this
Court cannot determine whether the record contains
substantial evidence to support the Tax Court’s conclusion that Petitioners had a “substantial basis” to contest the Comptroller’s assessments. The law is clear
that an administrative agency’s findings must be
meaningful and cannot simply repeat statutory criteria, broad conclusory statements, or boilerplate resolutions. Becker, 174 Md. App. at 138-139. Here, the Tax
Court waived petitioners’ interest and penalties on the
2

In the absence of such a request by Petitioners, it is not
clear whether the Tax Court was empowered to consider it.

54a
basis of a broad conclusory statement that they had a
reasonable basis to challenge their tax assessment.
V.

CONCLUSION

For the reasons set forth above, this Court will
affirm the Tax Court’s decision regarding Petitioners’
tax assessment. The Court will vacate the Tax Court’s
decision waiving Petitioners’ interest and penalties,
and remand this matter to that court for a de novo
evidentiary hearing on the issue of whether the Comptroller’s interest and penalties against Petitioners (or
either of them) should be waived, in part or in whole.
Dated: December 30, 2016
/s/ Paul Garvey Goetzke
Paul Garvey Goetzke,
Associate Judge
Circuit Court for
Anne Arundel County

55a
APPENDIX C
STAPLES, INC.
STAPLES THE OFFICE
SUPERSTORE, INC.
vs.
COMPTROLLER OF
THE TREASURY

*

IN THE

*

MARYLAND TAX
COURT

*

No. 09-IN-OO-0148
& 09-IN-OO-0149

*

MEMORANDUM AND ORDER
(Filed May 28, 2015)
On January 28, 2008, the Comptroller assessed
corporate income taxes against Petitioners, Staples,
Inc. (“Staples”) and Staples the Office Superstore, Inc.
(“Superstore”), for the years 1999 through and including 2004 together with interest and penalties. This
appeal stems from a Notice of Final Determination
issued on January 26, 2009 (“Notices”) upholding the
Comptroller’s assessment of taxes, interest and penalties for the 1999 through 2004 tax years (“Tax Years”)
in the aggregate amount of $14,392,364. In his Notices,
the Comptroller alleges that Staples and Superstore
(hereinafter sometimes referred to as “Petitioners”)
were operated, at least in part, to avoid income taxes
in the State of Maryland.
The questions presented for the Court to consider
are as follows:
1) Did Staples and Superstore have sufficient
contacts with Maryland to require it to file returns and
pay income taxes in the years 1999 through 2004?

56a
2) If Staples and Superstore had sufficient contacts with Maryland to require it to file returns and
pay income taxes in the subject years, did the Comptroller fairly apportion income to the taxpayer’s Maryland-related income producing activities?
3) If Staples and Superstore are required to file
income taxes should the Court exercise its discretion to waive interest and/or penalties for reasonable
cause?
The Comptroller contends that Staples and Superstore have no economic substance as separate entities.
The Petitioners argue that Comptroller ignores the
thousands of individuals employed by Superstore to
whom it paid between $103 million and $222 million of
salaries and wages and the over $150 million of real
property, buildings and other depreciable assets owned
by Superstore. Moreover, the Comptroller ignored
the salaries and wages of between $54 million and
$105 million paid by Staples and the real property,
buildings and other depreciable assets of between
$110 million and $160 million owned by Staples. Petitioners argue that the numerous services provided by
Staples and Superstore were provided for fees that
were charged at arm’s length rates. Petitioner contends that Staples and Superstore have established
operating companies with real economic substance.
The Court of Appeals of Maryland has consistently
held certain constitutional principles must be satisfied
before an entity is subject to Maryland income tax.
“Under both the Due Process and the Commerce

57a
Clauses of the Constitution, a state may not, when
imposing an income-based tax, ‘tax value earned outside its borders’.” Container corp. of America v. Franchise Tax Bd., 463 U.S. 159, 164, 103 S. Ct. 2933, 2939
(1983). “Both the Due Process and Commerce Clauses
require that there be ‘some definite link, some minimum connection, between a state and the person, property or transaction it seeks to tax’.” Allied-Signal, Inc.
v. Dir., Div. of Taxation, 504 U.S. 768, 777, 112 S. Ct.
2251, 2258 (1992). Both constitutional provisions are
distinct, and “reflect different constitutional concerns”.
Quill Corp. v. North Dakota By and Through Heitkamp,
504 U.S. 298, 305, 112 S. Ct. 1904, 1909 (1992). The
Due Process Clause imposes the requirement of fairness on governmental activity, while the Commerce
Clause primarily concerns “the effects of state regulation on the national economy”. Quill, 504 U.S. at 312,
112 S. Ct. at 1913. Physical presence is not required to
satisfy due process, so long as the business engages in
some purposeful direction to the state. The Commerce
Clause requires that if the tax is applied to an activity
with a substantial nexus with the taxing State, the tax
must be fairly apportioned, does not discriminate
against interstate commerce, and is fairly related
to the services provided by the State. Trinova Corp. v.
Michigan Dep’t of Treasury, 498 U.S. 358, 372,
111 S. Ct. 818, 828 (1991).
Under the unitary business principle, the State is
authorized to tax the portion of value that a unitary
business derived from its operation within the particular state. The unitary business principle enables

58a
taxation by apportionment when the characteristics of
“functional integration, centralized management, and
economies of scale” are present. However, when a “ ‘discrete business enterprise’ ” is responsible for that
value, then the State cannot tax that value, even by
apportionment.
Maryland courts have consistently concluded that
the basis of a nexus sufficient to justify taxation is the
economic reality of the fact that the parent’s business
in Maryland was what produced the income of the subsidiary. The Classics Chicago, Inc., et al [v.] Comptroller
of the Treasury, 189 Md. App. 593 (2010); Comptroller
of the Treasury v. SYL, Inc. 375 Md. 78, cert. denied
540 U.S. 982 and 540 U.S. 1090 (2003). Thus, the
Court’s initial inquiry is to examine the facts and
determine whether the Petitioner had real economic
substance as separate business entities.
In the years immediately preceding the audit
period, specifically 1993 through 1997, Staples’ intellectual property was held by Staples Properties, Inc., a
subsidiary of Staples, Inc., and licensed back to Staples, Inc. Correspondingly, Staples, Inc. paid royalties
to Staples Properties, Inc. Staples Properties, Inc. was
previously audited and assessed for income tax liabilities due the State for the period 1993 through 1997.
Staples paid assessments for those years in the following amounts:

59a
Year

Tax

2% Penalty Interest

Total

1993

$64,894

$1,298

$154,346 $220,538

1994

$170,317 $3,406

$382,947 $556,671

1995

$234,947 $4,699

$497,635 $737,281

1996

$353,074 $7,061

$702,067 $1,062,202

1997

$488,631 $9,773

$908,093 $1,406,496

In 1998, to minimize or eliminate its state tax liabilities in separate return states like Maryland, Staples undertook a reorganization that created a new
scheme for shifting income using royalty and interest
expenses.
After the Staples’ reorganization in 1998, Staples
was engaged in providing the managerial and administrative services, including cash pooling and management, credit support functions, paying all obligations,
and providing legal, accounting, financial and payroll
services, on behalf of Superstore, Staples East and Staples C&C. Superstore and Staples C&C were wholly
owned subsidiaries of Staples and Staples East was a
wholly owned subsidiary of Superstore. Superstore
provided the franchise system services to Staples East
and Staples C&C, including centralized purchasing,
inventory control, lease and contract negotiations,
advertising and marketing, research and development,
store site selection and construction, equipment and
signage.
Superstore, Staples C&C, and Staples East relied
on Staples for corporate necessities, such as cash and

60a
credit, payment of their bills, the provision of legal,
financial and accounting services, and strategic planning. Staples C&C and Staples East relied on Superstore for purchasing goods, advertising and marketing,
inventory control, site selection, store construction and
layout, licenses to use the trademarks and other intellectual property, and research and development. In
reality, the activities of Staples and Superstore permeate the activities of each other and Staples C&C and
Staples East. As separate entities, the Petitioners
could not operate independently. The facts support the
Comptroller’s position that enterprise dependency
existed between the Petitioners and the affiliated corporations. Thus, the Petitioners were not separate
business entities, are a part of a unitary business
enterprise, and accordingly, there is nexus with the
State of Maryland. In Gore Enterprise Holdings, Inc. v.
Comptroller of the Treasury and Future Value, Inc. v.
Comptroller of the Treasury, 437 Md. 492, 87 A. 3d
1263 (2014), the Court of Appeals sanctioned the constitutionality, propriety, and fairness of applying the
apportionment factor of the licensee/in-state retailer
to the affiliated entities that received the royalty and
interest payments. The Court stated that the apportionment formula used by the Comptroller should
reflect a reasonable sense of how [the petitioners’]
income is generated. The apportionment formula
used by the Comptroller in that case captured Gore’s
expenses in Maryland-expenses that simultaneously
constituted income for its subsidiaries. The Comptroller’s responsibility was to capture and tax only that

61a
income of the Petitioners that was reasonably attributable to Maryland.
Superstore, in this case, received royalty income
which has been taken as an expense by Staples C&C
and Staples East. Staples received interest income
which has been taken as an expense by Staples C&C
and Staples East. Using an apportionment methodology identical to that used in Gore, the Comptroller’s
assessments in this case have captured the royalty and
interest expenses of Staples C&C and Staples East –
expenses that simultaneously constituted the income
for Superstore and Staples.
The reasonableness of these assessments is readily apparent when the uncontested assessments against
Staples Properties, Inc. for the prior period of 1993 to
1997 are considered. As stated above, in 1993, Staples
placed its intellectual property in Staples Properties,
Inc., licensing the use of those intangibles back to Staples, Inc. Thus Staples, Inc. reduced its state taxable
income by shifting income to the out-of-state entity visa-vis the royalty expense payment it made to Staples
Properties, Inc.
Staples Properties’ royalty income, paid to it by
Staples, Inc. rose from $18,884,807 in 1993 to $132,002,909
in 1997. The uncontested tax assessed by the Comptroller for this period rose from $64,894 in 1993 to
$488,631 in 1997, an average annual increase of
approximately 65.5%. In 1997, the apportionment
factor, as derived from Staples, Inc.’s own calculations,
was .052881.

62a
In 1998, the first year the reorganization took
effect and the first year of the audit period, Petitioners
reported royalty payments, now paid by Staples C&C
and Staples East to Superstore, in the amount of
$186,387,520. The apportionment factor, as derived
from Staples C&C’s and Staples East’s own calculations, was .073377 and the tax assessed for 1998 was
$957,358.
Petitioners claim that the Comptroller’s assessments “grossly distort the income of Superstore and
Staples attributable to Maryland.” The Petitioners
offered the testimony of Dr. Brian J. Cody, as purported
evidence in support of its claim that the Comptroller’s
computation is distortive. But, Dr. Cody’s testimony
was further premised on the assumption that Staples
operated as a single entity prior to 1998 and opined
that the assessments were distortive.
The Court finds that Dr. Cody’s opinion was not
persuasive. Staples did not operate as a single entity
prior to 1998. Rather, Staples, Inc. was the operating
entity; and Staples Properties, Inc. owned the intellectual property, receiving substantial royalty payments
from Staples, Inc. for the use of that property. The
Court concludes that the Comptroller’s assessments
reasonably reflected how the Petitioners’ income was
generated and fairly represented income attributable
to Maryland.
The final question is whether interest and penalties should be waived under Tax-General Article
Sections 13-606 (waiver of interest) and 13-714 (waiver

63a
of penalties). In Frey v. Comptroller of the Treasury,
184 Md. App. 315,421 (2009), the Court of Special
Appeals referred to the reasonable cause exception set
forth in the applicable statutes. The Court finds that
the Petitioners had a reasonable basis for challenging
the law and acted in good faith. The state of the law
has evolved through various court decisions in Quill,
SYL, Classics Chicago, and Gore.
For all of the above reasons, the Maryland Tax
Court this 28th day of May 2015, AFFIRMS the
assessments of tax, abates interest after the date of
filing this appeal in the Maryland Tax Court (February
20, 2009) until the date of this Order, and abates all
penalties.

64a
APPENDIX D
[LOGO] COMPTROLLER
of MARYLAND
Servicing the People

Peter Franchot
Comptroller
James T. Loftus
Director
Compliance Division

301 West Preston Street • Baltimore, MD 21201-2383
Maryland Relay 711 • TTY (410) 767-1967 •
http://compnet.comp.state.md.us/compliance
NOTICE OF FINAL DETERMINATION
READ THIS NOTICE WITH CARE:
YOU MUST ACT WITHIN 30 DAYS OF THIS
NOTICE DATE TO PRESERVE FURTHER
APPEAL RIGHTS.
Staples The Office
Superstore,Inc.
500 Staples Drive
Framingham, MA 01702
Attn: Ken Marderosian
Tax Manager

TIN: 04-3102589
Tax Years: 1998 - 2003
Tracking No.: 58922
Date: January 26, 2009

65a
ASSESSED AMOUNTS:
Staples The Office Superstore, Inc.
Tax Year:
1998
1999
2000
2001
2002
2003

Tax:
$957,358.00
$1,085,745.00
$1,105,337.00
$1,011,385.00
$1,046,114.00
$1,134,895.00

Interest:
$1,099,978.00
$1,105,959.00
$982,617.00
$767,619.00
$657,983.00
$565,886.00

Totals:

$6,340,835.00

$5,180,042.00

Tax Year:
1998
1999
2000
2001
2002
2003
Totals:

Penalty:
$239,340.00
$271,436.00
$276,334.00
$252,847.00
$261,529.00
$283,724.00

Total:
$2,296,676.00
$2,463,140.00
$2,364,288.00
$2,031,852.00
$1,965,626.00
$1,984,505.00

$1,585,210.00
Balance Due:

$13,106,087.00
$13,106,087.00

FINAL AMOUNTS DUE:
Staples The Office Superstore, Inc.
Tax Year:
1998
1999
2000
2001
2002
2003

Tax:
$957,358.00
$1,085,745.00
$1,105,337.00
$1,011,386.00
$1,046,114.00
$1,134,895.00

Interest:
$1,218,977.00
$1,240,917.00
$1,120,011.00
$893,334.00
$788,015.00
$706,953.00

Totals:

$6,340,835.00

$5,968,207.00

66a
Tax Year:
1998
1999
2000
2001
2002
2003
Totals:

Penalty:
$239,340.00
$271,436.00
$276,334.00
$252,847.00
$261,529.00
$283,724.00

Total:
$2,415,675.00
$2,598,098.00
$2,501,682.00
$2,157,567.00
$2,095,658.00
$2,125,572.00

$1,585,210.00
Balance Due:

$13,894,252.00
$13,894,252.00

This is the Comptroller’s Final Determination on
your request for revision of the assessment issued on
January 28, 2008 for the tax years referenced above,
pursuant to Tax General Article §13-508(c).
A hearing was held on June 6, 2008.
Mary Wood and Peter DiMartino appeared on
behalf of the Comptroller of Maryland. Mr. DiMartino
testified to the following. Staples The Office Superstore, Inc. (“Corporation”) is a subsidiary of Staples, Inc
(“Staples”). The assessment issued against the Corporation stems from an audit of two affiliates of Staples,
Staple the Officer Superstore East (“Staples East”) and
Staples Contract and Commercial, Inc. (“Staples
C&C”). Both of these entities filed Maryland corporate
income tax returns during tax years 1998 – 2003. During the course of auditing Staples East and Staples
C&C, it was discovered that Staples East and Staples
C&C were paying royalties and interest to Staples and
the Corporation. Consequently, Staples East and Staples C&C took deductions for the royalty payments

67a
on their Maryland income tax returns for tax years
1998-2003.
Mr. DiMartino further testified that the Taxpayer
was assessed based on the court case Comptroller of
Treasury v. Syl, Inc., 375 Md. 78, 825 A. 2d 399 (2003).
Mr. DiMartino explained that while the Corporation
does not have the same structure as the taxpayer in
Syl, the result is the same in that Staples East, Staples
C&C, and the Corporation failed to pay any Maryland
tax on royalty income. As the Maryland taxpayers, Staples East and Staples C&C, utilized the trademarks
owned by the Taxpayer, Mr. DiMartino felt that the
taxation of the royalty income received by the Taxpayer was justifiable under Syl.
Finally, Mr. DiMartino explained that the Comptroller’s methodology started with the royalty payments by Staples East and Staples C&C to the
Corporation. The percentage of royalty payments made
by each company was then multiplied by the respective
affiliate’s factor to derive a blended factor for Staples
East and Staples C&C. The blended factor is then
multiplied by the total intangible income to determine
Maryland taxable income. The Maryland taxable
income is then multiplied times the Maryland corporate income tax rate of seven percent to derive the
Maryland tax due.
Craig Fields and Roberta Moseley Nero, attorneys
at Morrison & Forester, LLP, and Harry Shapiro, attorney at Saul Ewing, LLP, appeared on behalf of the taxpayer. Prior to the hearing, Ms. Nero submitted an

68a
application for revision of the notice of assessment
which explained and summarized the structure of
Staples and its subsidiary. The application for revision,
incorporated by reference at the hearing, stated the
following. The Corporation is a corporation organized
under the laws of Delaware with a principal place of
business of Framingham, Massachusetts. The Corporation is a subsidiary of Staples.
The Corporation operates retail stores and a distribution center that sell office supplies and equipment
in various states, but not in Maryland. The Corporation also owns certain valuable trademarks and other
intellectual property (“Marks”). According to Ms.
Nero’s submission, the Corporation is not engaged in
business within Maryland.
Staples East is a subsidiary of the Taxpayer. Staples East operates retail stores and distribution centers that sell office supplies and equipment in various
states, including Maryland. Staples East timely filed
Maryland corporate income tax returns during each of
the tax years in question.
Staples C&C is a subsidiary of Staples. Staples
C&C operates retail stores and distribution centers
that sell office supplies and equipment in various
states, including Maryland. Staples C&C timely filed
Maryland corporate income tax returns during each of
the tax years in question.
On February 1, 1998, the Taxpayer entered into
an agreement with Staples East whereby Staples
East was permitted to use the Corporation’s Marks in

69a
exchange for a royalty. The Corporation entered into a
similar agreement with Staples C&C on February 1,
1998. Pursuant to the agreements, Staples East and
Staples C&C pay the Corporation royalties for the use
of the Marks. According to Ms. Nero’s submission, the
royalty rates rate by Staples East and Staples C&C for
the use of the trademarks and intellectual property are
arm’s length royalty rates.
During the hearing, Mr. Fields and Mr. Shapiro
made two arguments with regard to the Notice of
Assessment. First, the Notice of Assessment is unconstitutional and violates Maryland law. The auditors
assessed the Comptroller based on their determination
that the taxpayer was “like Syl.” However, the court in
Syl decided that the taxpayer did not have any economic substance. According to Mr. Shapiro, the Corporation had approximately 7,300 employees and
$183 million in land, building, and depreciable property during tax year 2003. As such, Messrs. Fields and
Shapiro both strenuously argued that the Corporation
is not comparable to the taxpayer in the Syl case
because the Corporation has economic substance as a
stand alone entity. As a consequence, Messrs. Fields
and Shapiro stated that the royalties received by the
Corporation could not be taxed by the Comptroller
based on the legal principles found in the Syl case.
The second point of contention by Messrs. Fields
and Shapiro is the Comptroller’s methodology for computing the income tax due for each tax year. Mr. Fields
stated that, under Tax General-Article § 10-304, the
Comptroller is required to start with federal taxable

70a
income when calculating a corporate income tax liability and then apportion the income using the apportionment factors of Staples East and Staples C&C
as required by Tax-General Article § 10-402(a)(2) and
(c)(1). Mr. Fields observed that notwithstanding Maryland law, the Comptroller started the computation
with royalty payments and then apportion factor of the
Corporation. Mr. Shapiro argued that instead of complying with Maryland law, the Comptroller’s office is
simply “carving out” the income attributable to the royalty payments. Mr. Shapiro maintained that the Syl
case does not give the Comptroller legal authority to
do so. Mr. Shapiro challenged the auditors to point to
any language in the Syl opinion that authorizes the
Comptroller’s methodology.
In response, Mr. DeMartino alluded to the fact as
the Corporation does not have property payroll, and
sales in the State of Maryland, the Corporation’s
apportionment factor would be zero and thus, its
corporate tax liability would be zero as well. Mr. De
Martino concluded that a zero tax liability would not
be fair or reasonable result. Mrs. Wood asserted that
this methodology was used by the court in Syl and is
the standard methodology used in the Comptroller’s
corporate income tax audits and assessments.
Finally, Messrs. Fields and Shapiro requested
abatement of the 25% penalty for reasonable cause
under Tax-General Article § 13-714 should the assessment be upheld. Messrs. Field and Shapiro contended
that the Corporation engaged in a legitimate transaction. Even if the transaction is deemed to violate

71a
Maryland law, the Corporation could not have known
that the transaction would be taxable based on a reading of the Syl case. As such, it is unfair to assess a 25%
penalty against the Corporation.
Maryland Tax-General Article §10-810(a) addresses
state taxation of corporations by providing: “A corporation that, during a taxable year, has Maryland taxable
income shall file an income tax return.” More specifically, taxable income is addressed in Tax-General Article §10-402(a) as follows:
In computing Maryland taxable income, a
corporation shall allocate Maryland modified
income derived from or reasonably attributable to its trade or business in this state in the
following manner:
(1) if a corporation carries on its trade
or business wholly within the State, the corporation shall allocate to the State all of the
Maryland modified income of the corporation;
and
(2) if a corporation carries on its trade
or business in and out of the State, the corporation shall allocate to the State the part of
the corporation’s Maryland modified income
that is derived from or reasonably attributable to the part of its trade or business carried
on in the Stale, in the manner required in subsection (b), (c) or (d) of this section.
In the Syl case, Syms, Inc., a parent company
that conducted business in the state of Maryland, transferred intellectual property to Syl, Inc.,

72a
a Delaware-based subsidiary of Syms, for the purpose
of Syl owning and leasing the intellectual property
back to Syms in exchange for a royalty fee. The result
of the transaction was that the intellectual property
which was taxable under Syms in Maryland was held
in Delaware-based Syl. Delaware does not tax intellectual property.
Tax-General Article §10-402 states that a corporation shall allocate Maryland modified income derived
or reasonably attributable to its trade or business
in this state. In analyzing this statute, the court in
Comptroller of Treasury v. Syl, Inc., 375 Md. 78, 100,
825 A. 2d 399 at 412 (2003), stated that “the legislative
purpose underlying this statute is to tax multi-state
corporations doing business in Maryland to the bounds
permitted by the Unites States Constitution.” The
Constitution, under the Due Process Clause and Commerce Clause, does not permit a state to tax intrastate
activities unless nexus exists. Nexus is the existence of
a unitary business, part of which is carried on in the
taxing state. Comptroller of Treasury v. Armco Export
Sales Corp. 82 Md. App. 429, 572 A.2d 562 (1990). The
court in Syl found that a company without real or personal property in Maryland, without payroll in Maryland, and without sales in Maryland, nonetheless could
have substantial nexus with Maryland through its
leasing of intellectual property to its affiliate with a
presence in Maryland. Comptroller of Treasury v. Syl,
Inc., 375 Md. 78, 825 A. 2d 399 (2003).
In the analysis used to determine the holding of
the Syl case, the court analyzed other cases in which

73a
nexus was in question. One such case was Geoffrey,
Inc. v. South Carolina Tax Commission, 313 S.C. 15,
437 S.E.2d. 13, 16 (1993), in which the court held that
South Carolina correctly imposed state income tax on
a portion of income transferred by Toys R Us, which
had stores in the state, to Geoffrey, Inc., a subsidiary of
Toys R Us and Delaware holding company. The court
in Geoffrey said “By electing to license its trademarks
and trade names for use by Toys R Us in many states,
Geoffrey contemplated and purposefully sought the
benefit of economic contact with those states . . . We
hold that by licensing intangibles for use in this State
and deriving income from their use here, Geoffrey has
‘substantial nexus’ with South Carolina.”
After determining that the taxpayer had nexus
with the State of Maryland, the Maryland Court of
Appeals held that the subsidiaries formed to hold
intellectual property assets had no economic substance
as separate business entities, and thus a portion of
each subsidiary’s income, based on the parent corporation’s business in state, was subject to state income
tax.
Tax General Article § 10-304(1) states that “except
as provided in Subtitle 4 of this title, the Maryland
modified income of a corporation is the corporation’s
federal taxable income for the tax year as determined
under the Internal Revenue Code.” In computing Maryland taxable income, if a corporation carries on its
trade or business in and out of the State, the corporation shall allocate to the State the part of the corporation’s Maryland modified income that is derived

74a
from or reasonably attributable in this State in the following manner. Tax-General § 10-402(a)(2). If the
trade is a unitary business, the part of the corporation’s Maryland modified income derived from or reasonably attributable to trade or business carried on in
the State shall be determined using a 3-factor apportionment fraction: (1) the numerator of which is the
sum of the property factor, the payroll factor, and twice
the sale factor; and (2) the denominator of which is 4.
Tax General § 10-402(c)(1). To reflect clearly the income
allocable to Maryland, the Comptroller may alter, if
circumstances warrant, the methods under subsections (b) and (c) of this section, including: (1) the use of
the separate accounting method; (2) the use of the
3-factor double weighted sales factor formula method
or the single sales factor formula method; (3) the
weight of any factor in the 3-factor formula; (4) the valuation of rented property included in the property factor; and (5) the determination of the extent to which
tangible personal property is located in the State. TaxGeneral § Article § 10-402(d).
The Corporation contends that the holding in
Syl, with regard to nexus, is inapplicable in this case
because, unlike the “phantom company” in Syl, the
Corporation is a real company with a legitimate business purpose with its own “brick and mortar” distribution center, retail stores, employees, and payroll. The
stated business purpose of the Corporation is to operate a distribution center and retail stores that sell
office products. With regard to these arguments, I
find that the Corporation is a real company with a

75a
legitimate business purpose. However, the substance of
the activities of Staples C&C, Staples East, and the
Corporation in Maryland should control their tax consequences, not the organizational structure created by
tax planners. The royalty payments made by Staples
C&C and Staples East to the Corporation were not
made for any other purpose but for the fact that the
entities wished to reduce their state income tax liabilities. The Corporation licensed its Marks to Staples
East and Staples C&C for use in Maryland and thus
derived income from office products sold in Maryland.
Thus, the Corporation contemplated and purposefully
sought the benefit of economic contact with Maryland.
As such, the Corporation has substantial nexus with
Maryland
Turning to the underlying source of the Corporation’s portion of income attributable to Staples East
and Staples C&C, the Corporation licenses its Marks
to its affiliated companies. Staples East and Staples
C&C then took deductions on its corporate income tax
returns for royalty payments made to the Company.
Ultimately, these deductions for royalty payments
resulted in a reduction of Staples East and Staples
C&C’s corporate income tax paid to Maryland. As such,
it is the position of the Comptroller that the business
income of the Company attributable to the royalties
charged to Staples East and Staples C&C is income
reasonably and fairly attributable to carrying on business in Maryland. Thus, the Comptroller believes that
the Company has purposefully availed itself to, and
sought the economic benefit from, the state of Maryland

76a
through its licensing of its Marks to affiliates with a
substantial presence in Maryland, Staples East and
Staples C&C. Consequently, the Company has had sufficient contacts with Maryland to establish an adequate presence and, thus, nexus.
With the respect to economic substance as separate entities, the Corporation, Staples East, and Staples C&C are all engaged in the sales of office supplies
and equipment. Both the Corporation and Staples East
operate distribution centers and retail stores in various states. Based on the aforementioned description, I
also find that the Corporation has substantial nexus
with the State of Maryland because the Corporation,
Staples East, and Staples C&C do not have economic
substance as separate entities.
Finally, counsel for the taxpayer argues that the
assessment should be revised because the Comptroller
improperly calculated the assessment under TaxGeneral Article §§ 10-304(1), 10-402(a)(2) and (c)(2).
Under Tax-General Article § 10-304(1), a corporation is
required to start with federal taxable income when calculating corporate income tax “except as provided in
Subtitle 4 of this title.” Subtitle 4, “Special Treatment of Income,” contains Tax-General Article § 10402 which is quoted by counsel for the assertion that
the Corporation must use the apportionment factors of
Staples East and Staples C&C. However, Subtitle 4
also contains Tax-General Article § 10-402(d) which
authorizes the Comptroller to alter “if circumstances
warrant, the method of Tax-General § 10-402(b) and (c).
Thus, the federal taxable income must be used as the

77a
starting point of the calculation unless the circumstances warrant a different methodology.
Besides being authorized by statute, the methodology used by the Comptroller in determining the Corporation’s is appropriate for the two reasons. First,
under Messrs. Fields and Shapiro’s method, an out-ofstate corporation that has nexus with Comptroller of
Maryland, but does not have payroll, property or direct
sales in Maryland would always have an apportionment factor of zero and thus, a zero tax liability.
Clearly, the Comptroller’s methodology avoids such an
absurd result. Second, the Comptroller’s methodology
taxes only the royalty income shifted out of Maryland.
The Comptroller’s methodology in determining the corporate tax liability of the Corporation is the same
methodology used in the Syl case. Mr. Shapiro is correct that the court in Syl did not explicitly describe the
methodology used in the case or authorize a specific
methodology for calculating a taxpayer’s corporate
income tax liability. However, the Court of Appeals, in
upholding the assessment in the Syl case, has implicitly validated the methodology of the Comptroller.
The assessment, as revised in the amounts above,
is affirmed in the amounts noted above.
If you are dissatisfied with this final determination, AN APPEAL MUST BE TIMELY FILED IN THE
MARYLAND TAX COURT within 30 days of the date
shown above. DO NOT FILE AN APPEAL WITH THE
COMPTROLLER OF THE TREASURY. If you do
not appeal in accordance with the procedures of the

78a
MARYLAND TAX COURT within 30 days, this final
determination will become absolute and may not be
appealed for any reason. Appropriate forms for use in
filing appeals may be obtained from the MARYLAND
TAX COURT at 301 West Preston Street, Suite 1513,
Baltimore, MD 21201, telephone number (410)7674830.
/s/ Andrew Jay Maschas
Andrew Jay Maschas Esq.
Office of Hearings & Appeals
(410)767-1568
amaschas@comp.state.md.us
cc: Craig Fields, Esq.
Harry Shapiro, Esq.
Roberta Mosely Nero, Esq.

79a
APPENDIX E
[LOGO] COMPTROLLER
of MARYLAND
Servicing the People

Peter Franchot
Comptroller
James T. Loftus
Director
Compliance Division

301 West Preston Street • Baltimore, MD 21201-2383
Maryland Relay 711 • TTY (410) 767-1967 •
http://compnet.comp.state.md.us/compliance
NOTICE OF FINAL DETERMINATION
READ THIS NOTICE WITH CARE:
YOU MUST ACT WITHIN 30 DAYS OF THIS
NOTICE DATE TO PRESERVE FURTHER
APPEAL RIGHTS.
Staples Inc.
500 Staples Drive
Framingham, MA 01702
Attn: Ken Marderosian
Tax Manager

TIN: 04-2896127
Tax Years: 1998 - 2003
Tracking No.: 58921
Date: January 26, 2009

80a
ASSESSED AMOUNTS:
Staples Inc.
Tax Year:
1998
1999
2000
2001
2002
2003
Totals:
Staples Inc.
Tax Year:
1998
1999
2000
2001
2002
2003
Totals:

Tax:
$55,949.00
$50,469.00
$63,794.00
$42,125.00
$547.00
$441.00

Interest:
$64,284.00
$51,409.00
$56,711.00
$31,972.00
$344.00
$220.00

$213,325.00

$204,940.00

Penalty:
$13,987.00
$12,617.00
$15,949.00
$10,531.00
$137.00
$110.00

Total:
$134,220.00
$114,495.00
$136,454.00
$84,628.00
$1,028.00
$771.00

$53,331.00
Balance Due:

$471,596.00
$471,596.00

FINAL AMOUNTS DUE:
Staples Inc.
Tax Year:
1998
1999
2000
2001
2002
2003
Totals:

Tax:
$55,949.00
$50,469.00
$63,794.00
$42,125.00
$547.00
$441.00

Interest:
$71,238.00
$57,682.00
$64,641.00
$37,208.00
$412.00
$275.00

$213,325.00

$231,456.00

81a
Staples Inc.
Tax Year:
1998
1999
2000
2001
2002
2003

Penalty:
$13,987.00
$12,617.00
$15,949.00
$10,531.00
$137.00
$110.00

Total:
$141,174.00
$120,768.00
$144,384.00
$89,864.00
$1,096.00
$826.00

Totals:

$53,331.00
Balance Due:

$498,112.00
$498,112.00

This is the Comptroller’s Final Determination on
your request for revision of the assessment issued on
January 28, 2008 for the tax years referenced above,
pursuant to Tax-General Article §13-508(c).
A hearing was held on June 6, 2008.
Mary Wood and Peter DiMartino appeared on
behalf of the Comptroller of Maryland. Mr. DiMartino
testified to the following. The assessment issued
against Staples Inc. (“Corporation”) stems from an
audit of two affiliates of Staples, Staples the Office
Superstore East (“Staples East”) and Staples Contract
and Commercial, Inc. (“Staples C&C”). Both of these
entities filed Maryland corporate income tax returns
during tax years 1998 – 2003. During the course of
auditing Staples East and Staples C&C, it was discovered that Staples East and Staples C&C were paying
interest to Staples. Consequently, Staples East and
Staples C&C took deductions for the interest payments on their Maryland income tax returns for tax
years 1998-2003.

82a
Craig Fields and Roberta Moseley Nero, attorneys
at Morrison & Forester, LLP, and Harry Shapiro, attorney at Saul Ewing, LLP, appeared on behalf of the taxpayer. Prior to the hearing, Ms. Nero submitted an
application for revision of the notice of assessment
which explained and summarized the structure of Staples and its subsidiaries. The application for revision,
incorporated by reference at the hearing, stated the
following. The Corporation is a corporation organized
under the laws of Delaware with a principal place of
business of Framingham, Massachusetts.
The Corporation is engaged in the business of
providing a variety of managerial and administrative
services for the benefit of its subsidiaries. According to
Ms. Nero’s submission, the Corporation is not engaged
in business within Maryland.
Staples East is a subsidiary of the Taxpayer. Staples East operates retail stores and distribution centers that sell office supplies and equipment in various
states, including Maryland. Staples East timely filed
Maryland corporate income tax returns during each of
the tax years in question.
Staples C&C is a subsidiary of Staples. Staples
C&C operates retail stores and distribution centers
that sell office supplies and equipment in various
states, including Maryland. Staples C&C timely filed
Maryland corporate income tax returns during each of
the tax years in question.
According to Ms. Nero’s submission, the Corporation has a cash management system that coordinates

83a
a cash pooling arrangement with its companies. Under
the system, cash is loaned or borrowed to or by the
Corporation and interest is paid on bona fide debt. The
interest rates paid by the Corporation, Staples East,
and Staples C&C.
During the hearing, Mr. Fields and Mr. Shapiro
made two arguments with regard to the Notice of
Assessment. First, the Notice of Assessment is unconstitutional and violates Maryland law. The auditors
assessed the Comptroller based on their determination
that the taxpayer was “like Syl.” However, the court
in Syl decided that the taxpayer did not have any
economic substance. According to Mr. Fields, the Corporation had approximately 1,000 employees and
$100 million in payroll during tax year 2003. As such,
Mr. Fields strenuously argued that the Corporation is
not comparable to the taxpayer in the Syl case because
the Corporation has economic substance as a stand
alone entity. As a consequence, Mr. Fields stated that
the intercompany interest received by the Corporation
could not be taxed by the Comptroller based on the
legal principles found in the Syl case.
Mr. Fields also contended that the Corporation
is simply acting as a bank that loans money or pays
interest. Mr. Fields stated that the deduction would
have been allowed by the auditors if the Corporation was borrowing money from a third party. As
such, Mr. Fields was unable to grasp the reason for the
auditor’s disallowance of the deductions. Furthermore,
Mr. Fields was unaware of any court case either in
Maryland or in another state that authorized the

84a
imputation of interest to a company. Moreover, Mr.
Field contended that the Comptroller does not have
the authority to do so under the Syl or Geoffrey case.
The second point of contention by Messrs. Fields
and Shapiro is the Comptroller’s methodology for computing the income tax due for each tax year. Mr. Fields
stated that, under Tax-General-Article § 10-304, the
Comptroller is required to start with federal taxable
income when calculating a corporate income tax liability and then apportion the income using the apportionment factors of Staples East and Staples C&C as
required by Tax-General Article § 10-402(a)(2) and
(c)(1). Mr. Fields observed that notwithstanding Maryland law, the Comptroller started the computation
with interest payments and then apportion factor of
the Corporation. Mr. Shapiro argued that instead of
complying with Maryland law, the Comptroller’s office
is simply “carving out” the income attributable to
interest payments. Mr. Shapiro maintained that the
Syl case does not give the Comptroller legal authority
to do so. Mr. Shapiro challenged the auditors to point
to any language in the Syl opinion that authorizes the
Comptroller’s methodology.
In response, Mr. DeMartino alluded to the fact
as the Corporation does not have property, payroll,
and sales in the State of Maryland, the Corporation’s
apportionment factor would be zero and thus, its corporate tax liability would be zero as well. Mr. DeMartino concluded that a zero tax liability would not be fair
or reasonable result. Mrs. Wood asserted that this

85a
methodology was used by the court in Syl and is the
standard methodology used in the Comptroller’s corporate income tax audits and assessments.
Finally, Messrs. Fields requested abatement of
interest under Tax-General Article § 13-606 and the
25% penalty for reasonable cause under Tax-General
Article § 13-714 should the assessment be upheld.
Messrs. Field and Shapiro contended that the Corporation engaged in a legitimate transaction. Even if the
transaction is deemed to violate Maryland law, the
Corporation could not have known that the transaction would be taxable based on a reading of the
Syl case.
As such, it is unfair to assess interest and a 25%
penalty against the Corporation.
Maryland Tax-General Article §10-810(a) addresses
state taxation of corporations by providing: “A corporation that, during a taxable year, has Maryland taxable
income shall file an income tax return.” More specifically, taxable income is addressed in Tax-General Article §10-402(a) as follows
In computing Maryland taxable income, a
corporation shall allocate Maryland modified
income derived from or reasonably attributable to its trade or business in this state in the
following manner:
(1) if a corporation carries on its trade
or business wholly within the State, the corporation shall allocate to the State all of the
Maryland modified income of the corporation;

86a
(2) and if a corporation carries on its
trade or business in and out of the State, the
corporation shall allocate to the State the
part of the corporation’s Maryland modified
income that is derived from or reasonably
attributable to the part of its trade or business carried on in the State, in the manner
required in subsection (b), (c) or (d) of this
section.
In the Syl case, Syms, Inc., a parent company
that conducted business in the state of Maryland,
transferred intellectual property to Syl, Inc., a Delaware-based subsidiary of Syms, for the purpose of Syl
owning and leasing the intellectual property back to
Syms in exchange for a royalty fee. The result of the
transaction was that the intellectual property which
was taxable under Syms in Maryland was held in
Delaware-based Syl. Delaware does not tax intellectual property.
Tax-General Article §10-402 states that a corporation shall allocate Maryland modified income derived
or reasonably attributable to its trade or business
in this state. In analyzing this statute, the court in
Comptroller of Treasury v. Syl, Inc., 375 Md. 78, 100,
825 A. 2d 399 at 412 (2003), stated that “the legislative
purpose underlying this statute is to tax multi-state
corporations doing business in Maryland to the bounds
permitted by the Unites States Constitution.” The
Constitution, under the Due Process Clause and Commerce Clause, does not permit a state to tax intrastate
activities unless nexus exists. Nexus is the existence of

87a
a unitary business, part of which is carried on in the
taxing state. Comptroller of Treasury v. Armco Export
Sales Corp. 82 Md. App. 429, 572 A.2d 562 (1990). The
court in Syl found that a company without real or personal property in Maryland, without payroll in Maryland, and without sales in Maryland, nonetheless could
have substantial nexus with Maryland through its
leasing of intellectual property to its affiliate with a
presence in Maryland. Comptroller of Treasury v. Syl,
Inc., 375 Md. 78, 825 A. 2d 399 (2003).
In the analysis used to determine the holding of
the, Syl case, the court analyzed other cases in which
nexus was in question. One such case was Geoffrey, Inc.
v. South Carolina Tax Commission, 313 S.C. 15,
437 S.E.2d, 13, 16 (1993), in which the court held that
South Carolina correctly imposed state income tax on
a portion of income transferred by Toys R Us, which
had stores in the state, to Geoffrey, Inc., a subsidiary of
Toys R Us and Delaware holding company. The court
in Geoffrey said “By electing to license its trademarks
and trade names for use by Toys R Us in many states,
Geoffrey contemplated and purposefully sought the
benefit of economic contact with those states . . . We
hold that by licensing intangibles for use in this State
and deriving income from their use here, Geoffrey has
‘substantial nexus’ with South Carolina.”
After determining that the taxpayer had nexus
with the State of Maryland, the Maryland Court of
Appeals held that the subsidiaries formed to hold
intellectual property assets had no economic substance
as separate business entities, and thus a portion of

88a
each subsidiary’s income, based on the parent corporation’s business in state, was subject to state income
tax.
Tax General Article § 10-304(1) states that “except
as provided in Subtitle 4 of this title, the Maryland
modified income of a corporation is the corporation’s
federal taxable income for the tax year as determined
under the Internal Revenue Code.” In computing Maryland taxable income, if a corporation carries on its
trade or business in and out of the State, the corporation shall allocate to the State the part of the corporation’s Maryland modified income that is derived from
or reasonably attributable in this State in the following manner. Tax-General § 10-402(a)(2). If the trade
is a unitary business, the part of the corporation’s
Maryland modified income derived from or reasonably
attributable to trade or business carried on in the
State shall be determined using a 3-factor apportionment fraction: (1) the numerator of which is the sum of
the property factor, the payroll factor, and twice the
sale factor; and (2) the denominator of which is 4.
Tax-General § 10-402(c)(1). To reflect clearly the income
allocable to Maryland, the Comptroller may alter, if circumstances warrant, the methods under subsections
(b) and (c) of this section, including: (1) the use of the
separate accounting method; (2) the use of the 3-factor
double weighted sales factor formula method or the
single sales factor formula method; (3) the weight of
any factor in the 3-factor formula; (4) the valuation of
rented properly included in the property factor; and
(5) the determination of the extent to which tangible

89a
personal property is located in the State Tax-General
§ Article § 10-402(d).
The Corporation contends that the holding in Syl,
with regard to nexus, is inapplicable in this case because,
unlike the “phantom company” in Syl, the Corporation
is a real company with a legitimate business purpose
of performing managerial and administrative services
for the benefit of its subsidiaries. With regard to these
arguments, I find that the Corporation is a real company with a legitimate business purpose. However, the
substance of the activities of Staples C&C, Staples
East, and the Corporation in Maryland should control
their tax consequences, not the organizational structure created by tax planners. The interest payments
made by Staples C&C and Staples East to the Corporation were not made for any other purpose but for
the fact that the entities wished to reduce their state
income tax liabilities. The Corporation loaned money
to Staples East and Staples C&C for use in Maryland
and thus derived income from office products sold in
Maryland. Thus, the Corporation contemplated and
purposefully sought the benefit of economic contact
with Maryland. As such, the Corporation has substantial nexus with Maryland.
Turning to the underlying source of the Corporation’s portion of income attributable to Staples East
and Staples C&C, the Corporation loaned money to its
affiliated companies and charged them interest on
those loans. Staples East and Staples C&C then took
deductions on its corporate income tax returns for
interest payments made to the Company. Ultimately,

90a
these deductions for interest payments resulted in a
reduction of Staples East and Staples C&C’s corporate
income tax paid to Maryland. As such, it is the position
of the Comptroller that the business income of the
Company attributable to the interest charged to Staples East and Staples C&C is income reasonably and
fairly attributable to carrying on business in Maryland. Thus, the Comptroller believes that the Company
has purposefully availed itself to, and sought the economic benefit from, the state of Maryland through the
loans to affiliates with a substantial presence in
Maryland, Staples East and Staples C&C. Consequently, the Company has had sufficient contacts with
Maryland to establish an adequate presence and, thus,
nexus.
With the respect to economic substance as separate entities, Staples East, and Staples C&C are both
engaged in the sales of office supplies and equipment.
The Corporation performs managerial and administrative services for the two companies. Based on the aforementioned description, I also find that the Corporation
has substantial nexus with the State of Maryland
because the Corporation, Staples East and Staples
C&C do not have economic substance as separate entities.
Finally, counsel for the taxpayer argues that the
assessment should be revised because the Comptroller
improperly calculated the assessment under TaxGeneral Article §§ 10-304(1), 10-402(a)(2) and (c)(2).
Under Tax-General Article § 10-304(1), a corporation is
required to start with federal taxable income when

91a
calculating corporate income tax “except as provided in
Subtitle 4 of this title.” Subtitle 4, “Special Treatment
of Income,” contains Tax-General Article 10-402 which
is quoted by counsel for the assertion that the Corporation must use the apportionment factors of Staples
East and Staples C&C. However, Subtitle 4 also contains Tax-General Article § 10-402(d) which authorizes
the Comptroller to alter “if circumstances warrant, the
method of Tax-General § 10-402(b) and (c). Thus, the
federal taxable income must be used as the starting
point of the calculation unless the circumstances warrant a different methodology.
Besides being authorized by statute, the methodology used by the Comptroller in determining the Corporation’s is appropriate for the two reasons. First,
under Messrs. Fields and Shapiro’s method, an out-ofstate corporation that has nexus with Comptroller of
Maryland, but does not have payroll, property or direct
sales in Maryland would always have an apportionment factor of zero and thus, a zero tax liability.
Clearly, the Comptroller’s methodology avoids such an
absurd result. Second, the Comptroller’s methodology
taxes only the interest payments shifted out of Maryland. The Comptroller’s methodology in determining
the corporate tax liability of the Corporation is the
same methodology used in the Syl case. Mr. Shapiro is
correct that the court in Syl did not explicitly describe
the methodology used in the case or authorize a specific methodology for calculating a taxpayer’s corporate
income tax liability. However, the Court of Appeals, in

92a
upholding the assessment in the Syl case, has implicitly validated the methodology of the Comptroller.
The assessment, as revised in the amounts above,
is affirmed in the amounts noted above.
If you are dissatisfied with this final determination, AN APPEAL MUST BE TIMELY FILED IN THE
MARYLAND TAX COURT within 30 days of the date
shown above. DO NOT FILE AN APPEAL WITH THE
COMPTROLLER OF THE TREASURY. If you do not
appeal in accordance with the procedures of the MARYLAND TAX COURT within 30 days, this final determination will become absolute and may not be appealed
for any reason. Appropriate forms for use in filing
appeals may be obtained from the MARYLAND TAX
COURT at 301 West Preston Street, Suite 1513, Baltimore, MD 21201, telephone number (410)767-4830.
/s/ Andrew Jay Maschas
Andrew Jay Maschas Esq.
Office of Hearings & Appeals
(410)767-1568
amaschas@comp.state.md.us
cc: Craig Fields, Esq.
Harry Shapiro, Esq.
Roberta Mosely Nero, Esq.

93a
APPENDIX F
STAPLES, INC., et al.

* IN THE
*

COURT OF APPEALS
OF MARYLAND

v.

*

COA-PET-0417-2018

* CSA-REG-2597-2016
COMPTROLLER
OF THE TREASURY

*
*

(No. C-02-CV-15-002009,
Circuit Court for
Anne Arundel County)

ORDER
Upon consideration of the petition for a writ of certiorari to the Court of Special Appeals, the conditional
cross-petition, and the answers e-filed thereto, in the
above entitled case, it is
ORDERED, by the Court of Appeals of Maryland,
that the petition and the conditional cross-petition be,
and they are hereby, denied as there has been no showing that review by certiorari is desirable and in the
public interest.
/s/ Mary Ellen Barbera
Chief Judge
DATE: February 22, 2019

